<html>
<title> - LAYING THE FRAMEWORK FOR THE TASK AHEAD: AN EXAMINATION OF THE DEPARTMENT OF HOMELAND SECURITY'S QUADRENNIAL HOMELAND SECURITY REVIEW</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
    LAYING THE FRAMEWORK FOR THE TASK AHEAD: AN EXAMINATION OF THE 
 DEPARTMENT OF HOMELAND SECURITY'S QUADRENNIAL HOMELAND SECURITY REVIEW
=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON MANAGEMENT,
                     INVESTIGATIONS, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 29, 2010

                               __________

                           Serial No. 111-65

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAIABLE IN TIFF FORMAT] 




      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                        U.S. GOVERNMENT PRINTING OFFICE
62-542 PDF                    WASHINGTON : 2011
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2641564966455355524e434a560845494b08">[email&#160;protected]</a>  










                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
William L. Owens, New York
Bill Pascrell, Jr., New Jersey
Emmanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, U.S. Virgin Islands
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dana Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                 ------                                

       SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS, AND OVERSIGHT

             Christopher P. Carney, Pennsylvania, Chairman
Peter A. DeFazio, Oregon             Gus M. Bilirakis, Florida
Bill Pascrell, Jr., New Jersey       Anh ``Joseph'' Cao, Louisiana
Al Green, Texas                      Daniel E. Lungren, California
Mary Jo Kilroy, Ohio                 Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex      Officio)
    Officio)
                   Tamla T. Scott, Director & Counsel
                          Nikki Hadder, Clerk
                    Michael Russell, Senior Counsel
               Kerry Kinirons, Minority Subcommittee Lead
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight......................     1
The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Ranking Member, Subcommittee on 
  Management, Investigations, and Oversight......................     2

                               Witnesses

Ms. Jane Holl Lute, Deputy Secretary, Department of Homeland 
  Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Dr. James Carafano, Deputy Director, The Kathryn and Shelby 
  Cullom Davis Institute for International Studies and Director, 
  Douglas and Sarah Allison Center for Foreign Policy Studies, 
  The Heritage Foundation:
  Oral Statement.................................................    11
  Prepared Statement.............................................    14

                             For the Record

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Ranking Member, Subcommittee on 
  Management, Investigations, and Oversight:
  DHS Jurisdictional Chart.......................................     4


    LAYING THE FRAMEWORK FOR THE TASK AHEAD: AN EXAMINATION OF THE 
 DEPARTMENT OF HOMELAND SECURITY'S QUADRENNIAL HOMELAND SECURITY REVIEW

                              ----------                              


                        Thursday, April 29, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Management, Investigations, and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:11 a.m., in 
Room 311, Cannon House Office Building, Hon. Christopher P. 
Carney [Chairman of the subcommittee] presiding.
    Present: Representatives Carney, Pascrell, Green, and 
Bilirakis.
    Mr. Carney [presiding]. The Subcommittee on Management, 
Investigations, and Oversight will come to order.
    The subcommittee is meeting today to receive testimony on 
``Laying the Framework for the Task Ahead: An Examination of 
the Department of Homeland Security's Quadrennial Homeland 
Security Review.''
    Good morning. I would like to welcome everyone here today. 
I would especially like to thank Deputy Secretary Lute for 
participating in today's hearing. I am sure this will be a much 
more constructive hearing because of her testimony.
    The purpose of this hearing is to examine the Department of 
Homeland Security's completion of its first Quadrennial 
Homeland Security Review, or QHSR. This subcommittee has held a 
hearing and multiple briefings on the topic in both the 110th 
and 111th Congresses.
    I know that myself, the Ranking Member, and all Members of 
this subcommittee took a particular interest in the QHSR 
because we recognize how instrumental it is in shaping homeland 
security policy and guiding the Department toward a better 
protection of our country.
    We will examine the Department's process for completing the 
QHSR, its plans for implementing the new policies contained 
within the document, and whether the final product meets 
legislative requirements.
    The QHSR is a comprehensive assessment outlining the long-
term strategy and priorities for homeland security and guidance 
on the Department's programs, assets, capabilities, budget, 
policies, and authorities.
    According to statute, the first QHSR was required to be 
submitted to Congress by December 31, 2009. However, it wasn't 
until February 1, 2010--over a month after the required date--
that the Committee on Homeland Security received the QHSR.
    The most frustrating thing about that missed deadline was 
that, for a year-and-a-half prior to the deadline, this 
subcommittee had repeatedly asked the Department if it was 
going to be on time and if it needed more personnel or more 
funding. We were consistently told the Department had 
everything it needed to produce an on-time, quality product. We 
now know that was not the case.
    The 9/11 Act specifically delineates the information that 
is required to be included in the QHSR, yet some of the 
statutorily mandated items were not included in the QHSR. 
Missing was a description of the interagency cooperation, 
preparedness of Federal response assets, infrastructure, a 
budget plan, and other elements of the homeland security 
program.
    An assessment of the organizational alignment of the 
Department with the applicable National homeland security 
strategy was also not included. Missing, too, was a discussion 
of the status of cooperation among Federal agencies in the 
effort to promote National homeland security.
    There was no discussion of the status of cooperation 
between the Federal Government and State, local, and Tribal 
governments in preventing terrorist attacks and preparing for 
emergency response to threats to National homeland security.
    This is wholly unacceptable. These items were statutorily 
mandated to be included in the QHSR. They were not suggestions, 
and they were not optional. The lack of guidance on these items 
undercuts our National security.
    I am anxiously awaiting the release of the Bottom Up 
Review. I was first told by the Department that the BUR, the B-
U-R, would be released in late March. Then I was told early 
April, and then late April. I will be very interested in 
hearing today whether the Department has set a date for the 
release of the BUR.
    Much of the information that was included in the BUR was 
supposed to have been delivered in the QHSR almost 5 months 
ago. The BUR is not a statutorily mandated report; the QHSR 
was. It is my sincere hope that the next QHSR will be a 
complete product that doesn't require a follow-on review to 
complement it and excuses as to why it was not released on 
time.
    I would like to thank the witnesses for their 
participation, and I do look forward to their testimony.
    I now recognize the Ranking Member of the subcommittee, the 
gentleman from Florida, my friend, Mr. Bilirakis, for an 
opening statement.
    Mr. Bilirakis. Thank you, Mr. Chairman. Appreciate it very 
much.
    Good morning. I am pleased that the subcommittee is meeting 
today to discuss the Department of Homeland Security's first 
Quadrennial Homeland Security Review.
    I must start by expressing my disappointment with the 
Department's delay in transmitting the QHSR to Congress. 
Despite repeated bipartisan inquiries into whether the 
Department had sufficient time and resources to complete the 
review and assurances from the Department that it would be 
completed on time, the QHSR was over a month late and certainly 
fell short of the statutory requirements of the Implementing 
Recommendations of the 
9/11 Commission Act.
    Secretary Lute, it is for this reason that I am interested 
in hearing more about the Department's progress in completing 
its Bottom Up Review, which will contain the programmatic and 
budgetary information that I believe should have been included 
in the QHSR, in accordance with the 9/11 Act.
    I would also like to discuss the QHSR in the context of the 
President's fiscal year 2011 budget request for the Department 
of Homeland Security. In a February 8 CQ Homeland Security 
article, Assistant Secretary for Policy David Heyman stated, 
``We certainly had this strategic framework in mind when we 
constructed the [fiscal 2011] budget.'' Yet in many instances, 
the QHSR contains statements contradictory to the President's 
fiscal year 2011 budget request.
    The QHSR states that we must achieve effective control of 
the physical borders and approaches to the United States, a 
point on which we agree, Madam Secretary. Why, then, doesn't 
the budget request include the funding for CBP to add any 
additional miles of effective control in fiscal year 2011, and 
why does it cut $225 million for fencing and technology along 
the border?
    I can give you more examples of ways in which the QHSR and 
budget request conflict, but I will address them during my 
questioning. In addition, I am interested in hearing about the 
lessons learned from this QHSR process that can be applied as 
the next QHSR is drafted.
    Last, but certainly not least, while we are looking at the 
task ahead, as suggested by the hearing's title, I strongly 
agree with Dr. Carafano's comments in his written statement 
about the immediate need for Congress to consolidate 
jurisdiction over the Department of Homeland Security. The 
Department is currently reporting to more than 100 
Congressional committees and subcommittees, as you can see from 
this chart on the monitors.
    We have heard this recommendation time and time again from 
many notable sources, including the 9/11 Commission and the WMD 
Commission. I know this is an issue on which we agree, Mr. 
Chairman, and I hope Members of this committee will work 
together to take this very important step.
    After all, the Department won't truly be able to accomplish 
the goals set forth in the QHSR if it is continuously 
distracted from its mission by the current broken oversight 
system.
    With that, I would like to welcome our witnesses, and I 
look forward to your testimony. Thank you, Mr. Chairman, and I 
yield back the balance of my time.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Carney. I thank the gentleman from Florida.
    Other Members of the subcommittee are reminded that, under 
committee rules, opening statements may be submitted for the 
record.
    I welcome both of our witnesses. Our first witness is the 
deputy secretary for homeland security, Ms. Jane Holl Lute. 
Deputy Secretary Lute has over 30 years of military and senior 
executive experience in the United States Government and is at 
the heart of efforts to prevent and resolve international 
crises.
    Ms. Lute served as assistant secretary general of the 
United Nations, responsible for support to peacekeeping 
operations. In this capacity, she managed operational support 
for the second-largest deployed military presence in the world.
    At the United Nations, Ms. Lute led rapid response support 
to a variety of operations and crises in some of the most 
remote, austere, and dangerous environments in the world. She 
also effectively directed the growth of United Nations 
peacekeeping support from $1.8 billion to nearly $8 billion of 
operations annually.
    Most recently, Ms. Lute led the United Nations initiative 
designed to coordinate efforts and build sustainable peace in 
countries emerging from violent conflict. Prior to joining the 
United Nations, Ms. Lute served on the National Security 
Council staff under both President George H.W. Bush and 
President William Jefferson Clinton.
    Ms. Lute has a distinguished career in the United Nations 
Army, including serving in the gulf during Operation Desert 
Storm. Ms. Lute has a Ph.D. in political science from Stanford 
University and a J.D. from Georgetown University.
    Our second witness is Dr. James Carafano. Dr. Carafano, one 
of the Nation's leading experts in defense National homeland 
security, directs Heritage's Douglas and Sarah Allison Center 
for Foreign Policy Studies.
    In August 2009, Dr. Carafano was promoted to director of 
the Allison Center for Foreign Policy Studies, as well as to 
deputy director of the Kathryn and Shelby Cullom Davis 
Institute for International Studies.
    Dr. Carafano, a 25-year veteran of the Army, manages day-
to-day research and program activities of the Allison Center, 
in addition to overseeing the centers and projects at the Davis 
Institute.
    Before joining Heritage, he served 25 years in the U.S. 
Army, rising to the rank of lieutenant colonel, and was head 
speechwriter for the Army chief of staff, the service's 
highest-ranking officer. Dr. Carafano has also served as an 
assistant professor at the U.S. military academy in West Point 
and is currently a visiting professor at the National Defense 
University and Georgetown University.
    He is the author or co-author of numerous books, including 
``Winning the Long War: Lessons from the Cold War for Defeating 
Terrorism and Preserving Freedom,'' and the textbook ``Homeland 
Security,'' which was designed as a practical introduction to 
everyday life in the era of terrorism.
    Dr. Carafano is a graduate of West Point. He holds a 
master's degree and doctorate from Georgetown University, as 
well as a master's in strategy from the U.S. Army War College.
    Without objection, the witnesses' full statements will be 
inserted into the record. I now ask each witness to summarize a 
statement for 5 minutes, beginning with Deputy Secretary Lute.

 STATEMENT OF JANE HOLL LUTE, DEPUTY SECRETARY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Ms. Lute. Chairman Carney, Ranking Member Bilirakis, 
Members of the subcommittee, thank you for this opportunity to 
appear before you today.
    I am pleased to discuss the administration and our Nation's 
first-ever Quadrennial Homeland Security Review, the QHSR, that 
the Department of Homeland Security submitted to Congress on 
February 1 of this year.
    Even nearly 8 years since 9/11 and 6 years since the 
creation of the Department, questions regarding homeland 
security--what is it, how is the homeland best secured, and 
what does it mean to be prepared--still echo widely among 
homeland security stakeholders.
    The QHSR is a major step for our Department. It sets forth 
a vision and framework to help answer these central questions 
and shape the strategic direction of the Department and of 
homeland security for the next 4 years.
    As we have briefed Congress--as we have briefed 
stakeholders in the homeland security enterprise, we see the 
completion of the QHSR and the submission of the report as step 
No. 1 of a three-step process. Step No. 2 is, Mr. Chairman, as 
you noted, the Bottom Up Review, an exercise designed to 
examine the Department from the activity level up to align our 
programmatic activities and organizational structure with the 
missions and goals that were identified in the QHSR.
    Once completed and our work in the Department is completed, 
the BUR will inform step No. 3, which is our budget building 
process for fiscal year 2012 and for the 2012-2016 future years 
FYHSP.
    Let me mention just a few key concepts that we articulate 
in the QHSR. First, the QHSR lays out a positive, forward-
looking vision for homeland security. What does it mean to have 
a secure homeland? It means that we are trying to create a 
safe, secure, resilient place where the American way of life 
can thrive. We also discuss the concept of homeland security as 
an enterprise, and we do this in order to capture the 
collective efforts and shared responsibilities of Federal, 
State, local, Tribal, territorial, non-Governmental, and 
private-sector partners.
    Mr. Chairman, I have spent my entire career in National 
security, and there is a big difference between National 
security and homeland security, and this--the QHSR recognizes 
that difference, but also recognizes the essential connection 
between the two.
    In the QHSR, we identify what we see as the three pillars 
for the foundation of homeland security: Security itself, 
protecting the United States and its people, vital interests, 
and way of life; resilience, fostering individual, community 
and system robustness, adaptability, and capacity for rapid 
recovery; and customs and exchange, that is, expediting and 
enforcing lawful trades, travel, and immigration.
    Finally, the QHSR grounds homeland security in five mission 
sets, and we believe these mission sets are essential to 
achieving the vision of a safe and secure and resilient 
homeland protected from terrorism and other hazards where the 
American way of life can thrive. Those missions are preventing 
terrorism and enhancing security, securing and managing our 
borders, enforcing and administering our immigration laws, and 
safeguarding security in--safeguarding and securing cyberspace, 
and, finally, ensuring resilience to disasters.
    The QHSR was produced with lessons in mind from the past 7 
years with the lessons learned from the QDR process, which has 
a much longer history than the QHSR, and with the very broad 
input of literally thousands of individuals from across this 
country, from Government, private, and nonprofit sectors, and 
communities Nation-wide. We are proud of that accomplishment, 
and we can be confident that the homeland security enterprise 
will strengthen and mature over the next 4 years with a clear 
sense of purpose and common understanding of the mission at 
hand.
    As you have noted, Mr. Chairman, I have submitted my full 
statement for the record, and as well as a copy of the QHSR.* I 
look forward to addressing the committee--the questions that 
you and the committee may have.
---------------------------------------------------------------------------
    * The QHSR is available at http://www.dhs.gov/xlibrary/assets/
qhsr_report.pdf and has been retained in committee files.
---------------------------------------------------------------------------
    Thank you.
    [The statement of Ms. Lute follows:]
                  Prepared Statement of Jane Holl Lute
                             April 29, 2010
    Chairman Carney, Ranking Member Bilirakis, and Members of the 
subcommittee, thank you for this opportunity to appear before you to 
discuss the recently completed Quadrennial Homeland Security Review 
(QHSR).
    The QHSR represents the most comprehensive strategic assessment of 
homeland security to date, and it has set forth a vision and framework 
that will shape the strategic direction of homeland security for the 
next 4 years and guide all homeland security stakeholders toward common 
goals and objectives. Today, I'd like to describe the major findings 
and results of the QHSR, outline the approach we took in executing the 
review, and articulate some of the lessons learned along the way that 
we hope will inform the next QHSR.
    Secretary Napolitano and I are particularly proud of the 
substantive and consistent engagement with our Federal, State, local, 
Tribal, and non-Governmental partners that produced this first QHSR. 
This robust collaboration added immeasurable value to the analysis and 
reinforced a foundational theme of the review that I will address 
shortly--that homeland security is a vast enterprise which extends well 
beyond just the Department of Homeland Security (DHS), leveraging 
capabilities and capacities that reside across all levels of 
government, the private and non-Governmental sectors, and among the 
communities and citizens of this country.
                              introduction
    As the subcommittee is aware, Section 2401 of the Implementing 
Recommendations of the 9/11 Commission Act of 2007 amends Title VII of 
the Homeland Security Act of 2002 to require the Secretary of Homeland 
Security to conduct a QHSR every 4 years beginning in 2009. Congress 
was clear that the QHSR should delineate a homeland security strategy, 
including an outline of priority mission areas. The QHSR legislation 
also sought to better understand the resource and organizational 
implications of a new strategic view of homeland security. What we 
quickly discovered, however, was that any articulation of strategy or 
analysis of specific programmatic or resource tradeoffs--either within 
DHS or across the broader homeland security enterprise--had to be 
firmly rooted within a comprehensive understanding of homeland 
security. This understanding remained somewhat elusive, as questions 
like: ``What is homeland security?''; ``How is the homeland best 
secured?''; and, ``What does it mean to be prepared?'' still echoed 
widely among homeland security stakeholders 8 years after 9/11.
    To that end, the submission of the QHSR Report to Congress on Feb. 
1, 2010 marked an important first step in a multi-step process to 
examine and address fundamental issues that concern homeland security. 
The QHSR describes the Nation's homeland security interests, identifies 
the critical homeland security enterprise missions, and ultimately 
defines a strategic approach to those missions by laying out the 
principal goals, essential objectives, and key strategic outcomes 
necessary for that strategic approach to succeed. A bottom-up review 
(BUR) of the Department of Homeland Security was initiated in November 
2009 as an immediate follow on and complement to the Congressionally 
mandated QHSR, with the aim of aligning DHS' programmatic activities 
and organizational structure with the broader mission sets and goals 
identified in the QHSR. The BUR represents an intermediate substantive 
follow-on step to the QHSR and the results will be reflected in the 
President's 2012 budget submission and the DHS fiscal year 2012-2016 
Future Years Homeland Security Program. These documents will propose 
specific programmatic and resource adjustments.
    It is also important to note that the QHSR is not an assessment of 
the strategy, policy, or resource allocations of the Department of 
Homeland Security. By no means was this an internal review of DHS or a 
resource prioritization document. Rather, the QHSR was a strategic 
analysis that is already serving as a basis for a deeper review of the 
full range of homeland security enterprise missions.
                              qhsr results
    The QHSR has resulted in a new strategic framework and a positive, 
forward-looking vision for homeland security: A homeland that is safe, 
secure, and resilient against terrorism and other hazards where 
American interests, aspirations, and way of life can thrive. The QHSR 
acknowledges existing relationships, roles, and responsibilities, and 
seeks to set forth a shared vision of homeland security in order to 
achieve unity of purpose going forward.
    As referenced in my introduction, the QHSR introduces the concept 
of the homeland security enterprise to capture the collective efforts 
and shared responsibilities of Federal, State, local, Tribal, 
territorial, non-Governmental, and private-sector partners--as well as 
individuals, families, and communities--to maintain critical homeland 
security capabilities. The term ``enterprise'' connotes a broad-based 
community with a common interest in the public safety and well-being of 
America and American society that is composed of multiple actors and 
stakeholders whose roles and responsibilities are distributed and 
shared.
    Second, in conceptualizing a new strategic framework for the 
homeland security enterprise, several conclusions or principles 
provided necessary context. The QHSR takes a more comprehensive 
approach to homeland security threats by expanding the focus of 
homeland security to specifically address high-consequence weapons of 
mass destruction; al-Qaeda and global violent extremism; mass cyber 
attacks, intrusions, and disruptions; pandemics and natural disasters; 
and illegal trafficking and related transnational crime.
    Third, the QHSR identifies three key concepts essential to the 
foundation of homeland security and relevant to all homeland security 
activities:
  <bullet> Security: Protecting the United States and its people, vital 
        interests, and way of life;
  <bullet> Resilience: Fostering individual, community, and system 
        robustness, adaptability, and capacity for rapid recovery;
  <bullet> Customs and Exchange: Expediting and enforcing lawful trade, 
        travel, and immigration.
    All homeland security activities must be built upon a foundation of 
ensuring security and resilience in the normal, daily activities of 
society and interchange with the world.
    Informed by these principles, the QHSR Strategic Framework grounds 
homeland security in five missions and their associated goals and 
objectives that more completely capture the universe of activities 
required to achieve homeland security.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This framework recognizes that all-hazards emergency management is 
part of homeland security, and restores ``mitigating hazards'' as a 
strategic aim for Ensuring Resilience to Disasters. In addition, the 
framework acknowledges the vital importance of Enforcing and 
Administering Immigration Laws and Safeguarding and Securing Cyberspace 
by elevating these efforts to core homeland security missions.
    The QHSR also emphasizes the importance of maturing and 
strengthening the homeland security enterprise in recognition of the 
critically important functional capabilities that support the mission 
priorities outlined above. The goals in this area include:
  <bullet> Enhance Shared Awareness of Risks and Threats;
  <bullet> Build Capable Communities;
  <bullet> Foster Unity of Effort;
  <bullet> Foster Innovative Approaches and Solutions Through Leading-
        Edge Science and Technology.
                      qhsr structure and approach
    As I indicated previously, the QHSR benefited from the constructive 
engagement of thousands of dedicated individuals from across the 
country and, indeed, around the globe, including the key officials of 
DHS, the heads of other Federal agencies, and other relevant 
governmental and nongovernmental entities, including State, local, 
Tribal, and territorial governments, as well as the broader public at 
large. Although numbers alone cannot capture the depth and vibrancy of 
the debates and discussions that occurred throughout the process of 
preparing the QHSR, the process engaged more than 100 stakeholder 
associations and several hundred experts from government at all levels, 
as well as academia and the private sector. Our on-line National 
Dialogues had over 20,000 visits, with over 3,000 comments submitted.
    The core of the QHSR approach was the formation of seven study 
groups that consisted of over 200 participants from 42 DHS 
directorates, components, and offices. The study groups were each led 
by a DHS official and facilitated by an independent subject-matter 
expert, both of whom ensured that all viewpoints were aired and that 
divergent opinions were brought forward. The study groups conducted 
their analyses over a 5-month period, and consistently shared work 
products with the other stakeholder groups via multiple collaboration 
processes.
    A Steering Committee, chaired by the Deputy Assistant Secretary for 
Policy (Strategic Plans) and consisting of the leads and facilitators 
of each study group, ensured consistency and integration across the 
review and raised issues for leadership consideration. At the 
conclusion of the study group deliberation period, I convened more than 
a dozen senior leadership meetings to review and reach concurrence on 
study group recommendations. Final decisions on the recommendations 
reflected Departmental acknowledgement of the major themes around which 
the QHSR report was written.
    DHS also worked closely and consistently with the White House, 
National Security Staff and other Federal departments and agencies to 
refine the QHSR and ensure consistency with National strategy and other 
major security reviews, including the Quadrennial Defense Review and 
the Quadrennial Diplomacy and Development Review. Key mechanisms for 
interagency coordination included six special sub-Interagency Policy 
Committees established by the National Security Staff to provide a 
forum for interagency input on study group work products, and a 
Strategy Coordination Group which provided strategy and policy planners 
from across the Government an opportunity to share perspectives and 
provide feedback throughout the process. Congress was kept apprised of 
QHSR status and process through testimony by the Deputy Assistant 
Secretary for Policy (Strategic Plans) at the outset of the review, and 
through 17 briefings to Congressional staff, including multiple 
briefings to staff of the House Homeland Security Committee, the Senate 
Homeland Security and Government Affairs Committee, and the House and 
Senate Appropriations Subcommittees on Homeland Security, as well as 
briefings to staff of the House Energy and Commerce Committee, the 
House Judiciary Committee, the House Transportation and Infrastructure 
Committee, the Senate Commerce Committee, and the Senate Judiciary 
Committee.
    To ensure the broadest possible outreach to critical State, local, 
and Tribal partners as well as the general public, the Secretary of 
Homeland Security invited 118 homeland security stakeholder 
organizations representing State, local, Tribal, territorial, non-
Governmental, and private-sector interests, to submit papers and other 
materials relating to the QHSR study areas at the outset of the review. 
Over 40 position papers were received and disseminated to study groups, 
and these papers helped to frame and inform their deliberations. This 
early engagement of homeland security stakeholders at the beginning of 
the review process was a critical element of the QHSR.
    Second, in a groundbreaking initiative, DHS held three on-line, 
collaborative ``National Dialogue on the QHSR'' sessions to capture the 
direct input and perspectives of a wide array of participants across 
the homeland security enterprise. The National dialogues were open to 
anyone who wanted to provide input on QHSR content, although DHS 
engaged in deliberate outreach to several hundred organizations with 
interests in homeland security. As I stated earlier, over the course of 
three dialogues, more than 20,000 visits were logged, resulting in over 
3,000 comments on study group material. National dialogue comments and 
content ratings were provided to the study groups who used the 
information to inform their iterative deliberations throughout the 
analytic period of the review. Revised study group materials were 
posted on each subsequent dialogue, demonstrating how materials evolved 
over the course of the review and showing participants how their 
comments informed study group work.
    Last, the Secretary convened the leadership of ten key stakeholder 
associations that are broadly representative of State, local, Tribal, 
and territorial governments to form a ``virtual'' QHSR Executive 
Committee.\1\ DHS held monthly teleconferences with the Executive 
Committee throughout the analytic phase of the review to keep these 
organizations appraised of review progress. These organizations also 
participated in the collaborative events DHS held throughout the 
review, such as Secretary Napolitano's call for comment at the 
beginning of the review and the three National Dialogue sessions. 
Finally, on Nov. 19, 2009, Secretary Napolitano met in person with 
leadership representatives of the Executive Committee organizations to 
share key findings and recommendations of the QHSR. This in-person 
meeting provided key stakeholder organizations the opportunity to 
comment on QHSR findings and recommendations in a similar manner to, 
and at a similar time as, Federal department and agency leadership.
---------------------------------------------------------------------------
    \1\ The Executive Committee consisted of the leaders of the 
following organizations: The National Governors Association, the 
Council of State Governments, the U.S. Conference of Mayors, the 
National League of Cities, the National Association of Counties, the 
National Council of State Legislatures, the National Congress of 
American Indians, the International City/County Management Association, 
the National Emergency Management Association, and the International 
Association of Emergency Managers.
---------------------------------------------------------------------------
                     lessons learned and next steps
    As we look toward the next QHSR, I would like to share with you a 
few lessons learned. First, future Quadrennial Reviews should not be 
conducted in transition years. Senior leadership engagement and support 
is critical to any planning process of this scale, and the timeline of 
the transition process creates significant challenges in the critically 
important conceptualization and launch phases of a review. Based on the 
foundation set by the 2009 QHSR, the next QHSR will involve significant 
analytics during both the preparatory and early phases of the review, 
which must be conducted with full buy-in and awareness of senior 
leadership.
    In addition, the other major quadrennial reviews, including the 
Quadrennial Defense Review and Quadrennial Diplomacy and Development 
Review, among others, must be synchronized. Today's security 
environment demands whole of Government solutions and flexible and 
adaptable policy responses to difficult challenges. Quadrennial reviews 
offer an important opportunity to pause and ensure the strategy is 
right and the organization is aligned. We must find ways to do this in 
a way that meaningfully leverages the knowledge of each relevant 
department and agency, as well as stakeholders beyond the Federal 
Government.
    Last, though the QHSR succeeded in breaking down bureaucratic and 
other barriers to large-scale engagement with the public, there is 
still more we can do. The technology and the tools are there for 
Government to significantly enhance representative policymaking and we 
must facilitate the use of such tools across the Government.
                               conclusion
    The QHSR has been an incredibly valuable endeavor, both for the 
results I've outlined here today, as well as the path we took in 
getting here. It has already generated significant follow-on analysis 
and examination within DHS, including the results of the BUR that will 
be reflected in the 2012 President's budget submission, and other 
important efforts to improve DHS strategic management and analysis. We 
can be confident that the homeland security enterprise will proceed 
over the next 4 years with a clear sense of purpose and a common 
understanding of the mission at hand.
    I look forward to addressing any questions that you may have. Thank 
you.

    Mr. Carney. Thank you, Ms. Lute.
    Dr. Carafano for 5 minutes, please.

 STATEMENT OF JAMES CARAFANO, DEPUTY DIRECTOR, THE KATHRYN AND 
  SHELBY CULLOM DAVIS INSTITUTE FOR INTERNATIONAL STUDIES AND 
 DIRECTOR, DOUGLAS AND SARAH ALLISON CENTER FOR FOREIGN POLICY 
                STUDIES, THE HERITAGE FOUNDATION

    Mr. Carafano. Thank you, sir.
    I am deeply honored to be here, and I am very excited. I 
think that this is a real opportunity. I think the Department 
has produced a document that lays the foundation for a positive 
and constructive--and maybe contentious--but a healthy and 
useful dialogue between the Congress and the Department.
    I mentioned three areas of observations and comments in my 
statement. The first of those was analytics, and analytics is 
basically, how do you decide what is really important to look 
at, what is a big issue, and then how do you decide what is the 
right way to analyze that issue and then use that data?
    My observation there is, I think we can simply go a lot 
farther. I commend the Secretary and the deputy secretary for 
taking this process very seriously. I watched this as a member 
of the HSAC. They did give it the attention and leadership it 
deserved, and I did see improvements over the course of the 
year.
    But I think there is an awful long way to go. There is 
actually a fair amount of capacity already existent that the 
Department can harness in both the FFRDCs and the University of 
Excellence program, but you have got to organize it and harness 
it and be forward-looking in terms of thinking your problems 
and then build additional capabilities.
    I think QHSRs, to really be a strong, powerful document, 
have to have powerful analytics behind them. You know, I think 
we are just not there yet.
    The second area that I focused on in my comments is on 
enhancing the cooperation and the dialogue. How can we get the 
most out of this QHSR process for the Congress and Department 
to move forward together? That is two areas in there that I 
want to particularly highlight.
    One is Congressional oversight, which I think that this is 
the most significant issue. The 9/11 Commission report stated 
that this is a critical, vital issue, that you cannot have 
dysfunctional and diffuse oversight of the Department and 
expect to have it go forward in a strategic direction, and I 
think that is an incredibly significant challenge.
    When you look at the QHSR and you have tried to look 
forward about how you can work on these things, it is just 
very, very difficult to me to foresee with the current 
oversight of the Congress and the--how we are going to be able 
to move forward in an integrated and systematized matter.
    The other point I noted in there was the position of under 
secretary for policy and planning. I think there is a good 
parallel here in DOD. There is a reason why DOD, whether you 
like their QDR or not, whether they have a very demonstrably 
effective QDR process, and why policy and strategy really do 
drive the Department, and why there is a powerful link in that 
Department between policy planning and budgeting, and a lot of 
it has to do with the fact that the person that has the hot 
button in terms of policy and planning process is that at the 
appropriate level of leadership in the Department, and I think 
that is simply important for the Department of Homeland 
Security, as well.
    The third area which I really think is what we really 
should put the focus of our discussion is, there is a long 
laundry list of here in the Department of things that need to 
get done, and the Department I think rightly pointed in the 
QHSR that the single-most important obligation or duty or thing 
to go forward is to really build a National homeland security 
enterprise.
    It doesn't mean that Department of Homeland Security is 
running everything, but it does mean that there is a community 
of people that are looking after American citizens that bridges 
Federal, State, local, Tribal, private sector, non-
Governmental, and even international partners. Building that 
enterprise is an enormous challenge, and I listed some areas 
that I would propose or the--you know, the things that have to 
go to the top of the to-do list.
    I will just run through those very quickly. The first one 
of those, it was a response and resiliency, which I think are 
very important topics, and what I would like to highlight for 
the committee there is the administration is in the middle of 
writing HSPD-7, HSPD-8. I think these are critical documents. I 
think it is vitally important that the Department's leadership 
role in the interagency process be appropriately recognized in 
these documents, and if it is not, I think we are in real 
trouble, particularly disturbed that--on the planning side.
    The Department develops something called an integrated 
planning system, never really got off the ground, and it is a 
huge deficit. The fact that we don't have a way to have 
coherent planning at all level--integrated at all levels of 
governments is a serious problem. Quite frankly, I think we 
have not made anywhere near the progress we need to do that.
    I also talk a bit about international cooperation, which I 
think, you know, we all think Department of Homeland Security 
and we think internally, but, really, it is what the Department 
does as a global leader that makes a difference. You are only 
as strong as the weakest link, and virtually every aspect of 
homeland security has an international dimension to it.
    This is an area that we just haven't given appropriate 
attention. At the end of the day, I think the Department needs 
a toolset that looks a lot more like the Department of Defense. 
We think of individual education and training, IMET program, or 
other types of lend-lease programs and training programs. I 
think the Department ought to look a lot more like that.
    Counterterrorism, I think, is something also this committee 
ought to take a serious look at. I don't think the Intelligence 
Reorganization Act I don't think well served the Department. I 
don't think its leadership role in counterterrorism and 
intelligence was properly recognized.
    I think there is an enormous amount of counterterrorism 
capability within the Department that can be harnessed and 
integrated with other Federal agencies. So I think that--and 
stopping terrorist attacks, of course, should be our top 
priority.
    The last one is cyber. I commend the Department for putting 
that one on the list. It is a tough one. My observation there 
is, you know, we all--when we talk about cyber, we tend to talk 
a lot about kind of foot soldiers, you know, more analysts, you 
know, more of this, more of that.
    You know, cyber has simply become something that has 
transcended every element in our society. The problem with it 
is we all haven't caught up.
    In virtually every organization today, when somebody uses 
the word ``computer'' or ``Internet,'' the COO says--turns to 
the CIO and says, ``Take care of that.'' We are long past the 
age when this is CIO business. This is leadership business. 
Leaders at every level need to be cyber competent.
    I think we tend not to put enough emphasis on human 
capital, and particularly not enough evidence on training 
leadership. I think that is where the party really needs to go.
    We could debate whether these should be the top of the to-
do list, but I definitely think we would be ill-served if that 
wasn't a very important part of our discussion. But thank you 
again for having me, and I look very forward to hearing your 
questions.
    [The statement of Mr. Carafano follows:]
                  Prepared Statement of James Carafano
                             April 29, 2010
    My name is Dr. James Jay Carafano. I am the Deputy Director of the 
Kathryn and Shelby Cullom Davis Institute for International Studies and 
the Director of Douglas and Sarah Allison Center for Foreign Policy 
Studies at The Heritage Foundation. The views I express in this 
testimony are my own, and should not be construed as representing any 
official position of The Heritage Foundation.
    Thank you for the opportunity to appear before the committee today 
and address this vital subject. In my testimony today I would like to 
address what I see as the key lessons from the process of conducting 
the first-ever Quadrennial Homeland Security Review and what can be 
done to enhance the oversight role of Congress and the dialogue between 
the Legislative branch and the Department of Homeland Security. I will 
focus my comments on: (1) Improving methods of analysis, (2) enhancing 
cooperation with the Congress, and (3) establishing priorities for 
implementation.
    My responsibilities at The Heritage Foundation comprise supervising 
all the foundation's research on public policy concerning foreign 
policy and National security. Homeland security has been a particular 
Heritage research priority. The foundation produced the first major 
assessment of domestic security after 9/11.\1\ Over the past 9 years we 
have assembled a robust, talented, and dedicated research team. I have 
had the honor and privilege of leading them for over 8 years. Heritage 
analysts have studied and written authoritatively on virtually every 
aspect of homeland security and homeland defense. The results of all 
our research are publicly available on the Heritage Web site at 
www.heritage.org. We collaborate frequently with the homeland security 
research community, including: The Center for Strategic and 
International Studies (CSIS), the Aspen Institute, the Center for 
National Policy, the Hudson Institute, the George Washington University 
Homeland Security Policy Institute, and the Strategic Studies Institute 
and Center for Strategic Leadership at the Army War College. Heritage 
analysts also serve on a variety of Government advisory efforts, 
including task forces under the Homeland Security Advisory Council and 
Advisory Panel on Department of Defense Capabilities for Support of 
Civil Authorities. Our research programs are non-partisan, dedicated to 
developing policy proposals that will keep the Nation safe, free, and 
prosperous.
---------------------------------------------------------------------------
    \1\ L. Paul Bremer III and Edwin Meese III, Defending the American 
Homeland: A Report of the Heritage Foundation Homeland Security Task 
Force (Washington, DC: The Heritage Foundation, 2002).
---------------------------------------------------------------------------
                             call to action
    In 2004 David Heyman, who headed the Homeland Security program at 
CSIS (and who now is assistant secretary for policy at the U.S. 
Department of Homeland Security), and I led a research project that 
produced ``DHS 2.0: Rethinking the Department of Homeland Security,'' 
the first comprehensive review of the newly established Department of 
Homeland Security.\2\ One of the key steps we proposed for implementing 
the recommendations in the report was that ``Congress should establish 
a requirement for DHS to conduct quadrennial reviews . . .'' \3\ The 
Implementing the Recommendations of the 9/11 Commission Act of 2007 
established the requirement for this review.\4\
---------------------------------------------------------------------------
    \2\ James Jay Carafano and David Heyman, ``DHS 2.0 Rethinking the 
Department of Homeland Security,'' Heritage Foundation Special Report, 
SR-02, December 13, 2004, at http://www.heritage.org/Research/Reports/
2004/12/DHS-20-Rethinking-the-Department-of-Homeland-Security.
    \3\ James Jay Carafano, testimony before the Senate Committee on 
Homeland Security and Government Affairs, January 25, 2005 at 
www.heritage.org/Research/Testimony/Before-the-Senate-Committee-on-
Homeland-Security-and-Government-Affairs.
    \4\ Jena Baker McNeill, ``The Quadrennial Homeland Security Review: 
A Vital Tool for the Obama Administration,'' Heritage Foundation 
Backgrounder No. 2215, December 12, 2008, at http://s3.amazonaws.com/
thf_media/2008/pdf/bg2215.pdf.
---------------------------------------------------------------------------
    I had an opportunity to observe the process of conducting the 
review as a member of the Department's Quadrennial Review Advisory 
Committee. The committee met periodically with the management team 
overseeing the review and the leadership of the Department through each 
step of the process of determining the structure of the review, through 
data collection and outreach, the assessment phase, and the production 
of the final report.
    The Department should be commended for the seriousness with which 
it undertook the Quadrennial Homeland Security Review (QHSR) process. 
When the Department of Defense undertook its first Quadrennial Defense 
Review (QDR) in 1996, it had the advantage of being a standing 
department with an almost 50-year history, a large support staff and a 
well-developed set of analytical tools, strategies, and policies on 
which to draw. DHS had none of these. Furthermore, it had undertaken 
the review during the Department's first-ever transition in 
Presidential leadership. Given all these conditions, completing a 
thoughtful and relevant assessment that met statutory guidelines was a 
real achievement. In addition, DHS should be commended in the 
transparency that it allowed during the review, as well as its effort 
to reach out to stakeholders.\5\
---------------------------------------------------------------------------
    \5\ While DHS should be commended for its outreach effort, the 
process for prioritizing, gathering, assessing, and integrating 
stakeholders was immature, inefficient, and of doubtful value. I 
commend the recommendations of the report by a panel of the National 
Academy of Public Administration which analyzed the outreach effort. 
See, Franklin, S. Reader, et al. ``The National Dialogue on the 
Quadrennial Homeland Security Review,'' National Academy of Public 
Administration, April 2010, at www.napawash.org/pc_management_studies/
DHS/QHSR/QHSRFinalReport.pdf (April 25, 2010).
---------------------------------------------------------------------------
    As a result of the Department's effort Congress has a document that 
can serve as a basis for dialogue on our National homeland security 
enterprise. To me the report suggests a clear ``to-do list'' for both 
the administration and the Congress. Three items should top the agenda.
                   no. 1 improve methods of analysis
    One clear limitation of the QHSR was that the Department lacks a 
methodology to identify issues and appropriate methods of analysis to 
address them as well as sufficient analytical tools to undertake the 
analysis.\6\
---------------------------------------------------------------------------
    \6\ For more on this issue see James Jay Carafano, ``Thinking the 
Future,'' The Whitehead Journal of Diplomacy and International 
Relations (Summer/Fall 2009), pp. 27-38, at www.isn.ethz.ch/isn/
Digital-Library/Publications/Detail/?ots591=0C54E3B3-1E9C-BE1E-2C24-
A6A8C7060233&lng=en&id=112018 (April 25, 2010).
---------------------------------------------------------------------------
    Homeland security presents a uniquely challenging set of public 
policy issues. The National homeland security enterprise is a vast, 
complex system that includes a vast array of Federal, State, local, 
Tribal, private sector, community, non-governmental, and international 
entities.\7\ A system is ``any set of regularly interacting factors and 
activities that has definable boundaries and that produces measurable 
outputs.''\8\ The complexity of a system is determined by the number 
and diversity of interacting components. When systems become overly 
complex, their behavior cannot be easily predicted by traditional 
methods of analysis (breaking a system into its component parts and 
analyzing elements in detail).\9\ These systems are described as 
complex ``non-linear.'' Non-linear environments make it extremely 
difficult to map the cause and effect between variables. Indeed, in 
such environments isolating independent variables (a single factor that 
can be manipulated that will drive the behavior of the whole system) 
may be impossible. In a complex system, elements are so interconnected 
and their relationship so multifaceted that their properties cannot be 
properly understood without assessing their interrelationship with each 
other as well as their relationship with the wider system and its 
environment. Many homeland security challenges require mastering an 
understanding of complex, non-linear systems.\10\
---------------------------------------------------------------------------
    \7\ David Heyman and James Jay Carafano, ``Homeland Security 3.0: 
Building a National Enterprise to Keep America Safe, Free, and 
Prosperous,'' The Heritage Foundation and the Center for International 
and Strategic Studies,
    \8\ Richard L. Kugler, Policy Analysis in National Security 
Affairs: New Methods for a New Era (Washington, DC: National Defense 
University Press, 2006), p. 218.
    \9\ L.A.N. Amaral and J.M. Ottino, ``Complex Networks: Augmenting 
the Framework for the Study of Complex Systems,'' The European Physical 
Journal, May 14, 2004, at amaral.northwestern.edu/Publications/Papers/
Amaral-2004-Eur.Phys.J.B-38-147.pdf (April 13, 2009).
    \10\ Yaneer Bar-Yam, ``Multiscale Representation Phase I,'' New 
England Complex Systems Institute, August 1, 2001, at www.necsi.edu/
projects/yaneer/SSG_NECSI_1_CROP.pdf (April 13, 2009); James Jay 
Carafano and Richard Weitz, ``Complex Systems Analysis: A Necessary 
Tool for Homeland Security,'' Heritage Foundation Backgrounder No. 
2261, April 16, 2009, at www.heritage.org/Research/HomelandSecurity/
bg2261.cfm.
---------------------------------------------------------------------------
    QHSR findings would have greatly benefited from robust analytical 
complex systems analysis. There are several areas where the lack of 
analytical capacity is clearly apparent.
  <bullet> Defense Support to Civil Authorities.--Military support to 
        civil authorities for homeland security missions is vital. Yet, 
        DHS still lacks the capacity to develop requirements for this 
        support. As a result, an opportunity was lost to link the 
        analysis done in the Defense Department's QDR with the QHSR. 
        This had immediate and detrimental impact. The QDR cut the 
        number of specially trained and equipped forces prepared to 
        respond to chemical, biological, nuclear, radiological, and 
        high explosive attacks by almost 20 percent. The Pentagon, 
        however, is pushing forward with realignment plans by 
        decreasing the number of Consequence Management Response Forces 
        (CCMRF) from three to one and moving personnel from two CCMRFs 
        to 10 smaller Homeland Response Forces in each of the FEMA 
        districts. The Pentagon claims this is a slight structural 
        realignment, but such an organizational change and personnel 
        decrease would have a major impact on the ability of the United 
        States to respond to a large-scale disaster by reducing the 
        sheer number of specially prepared, dedicated forces to such a 
        response.\11\ Meanwhile, the QHSR remained virtually silent on 
        military support requirements.
---------------------------------------------------------------------------
    \11\ Jena Baker McNeill, ``Quadrennial Defense Review's Homeland 
Defense Realignment Leaves U.S. Less Prepared,'' Heritage Foundation 
WebMemo No. 2865, April 15, 2010, at www.heritage.org/Research/Reports/
2010/04/Quadrennial-Defense-Reviews-Homeland-Defense-Realignment-
Leaves-US-Less-Prepared (April 25, 2010); James Jay Carafano, ``Obama 
is Unprepared for Disaster,'' Washington Examiner, March 29, 2010 at 
www.washingtonexaminer.com/opinion/columns/Obama_s-U_S_-is-unprepared-
for-disaster-89360027.html (April 25, 2010).
---------------------------------------------------------------------------
  <bullet> Immigration and Border Security.--The QHSR identifies 
        ``Securing and Managing Our Borders'' and ``Enforcing and 
        Administering Our Immigration Laws'' as priority Departmental 
        missions. Together the border and commerce, transnational 
        criminal, and migration flows constitute a complex system.\12\ 
        Yet, DHS lacks the capacity to analyze the border and migration 
        flows as an integrated system. The administration supports 
        legislation that would grant amnesty to the millions unlawfully 
        present in the United States, arguing this would enhance 
        Government's capacity to control the border, improve public 
        safety, grow the economy, and enforce immigration laws. When 
        this strategy was attempted in 1986, however, it utterly 
        failed. The QHSR provides no analytical basis for suggesting 
        why the system would not fail again in the same way. Nor did it 
        assess alternative strategies that might better address the 
        problem.\13\
---------------------------------------------------------------------------
    \12\ David B. Muhlhausen, Ph.D., ``Building a Better Border: What 
the Experts Say,'' Heritage Foundation Backgrounder No. 1952, July 17, 
2006, at www.heritage.org/static/reportimages/
61B2F37CAC2EEC388C2444D8BF5E892D.pdf. James Jay Carafano, ``Border 
Security and State Safety and Security: Addressing Common Agendas'' in 
Simon Hakim and Erwin A. Blackstone, eds., Safeguarding Homeland 
Security: Governors and Mayors Speak Out (New York: Springer, 2009); 
James Jay Carafano, ``Safeguarding America's Sovereignty: A `System of 
Systems' Approach to Border Security,'' Heritage Foundation 
Backgrounder No. 1898, November 28, 2005, at www.heritage.org/Research/
Reports/2005/11/Safeguarding-Americas-Sovereignty-A-System-of-Systems-
Approach-to-Border-Security.
    \13\ Edwin Meese III, James Jay Carafano, Matthew Spalding, and 
Paul Rosenzweig, ``Alternatives to Amnesty: Proposals for Fair and 
Effective Immigration Reform,'' Heritage Foundation Backgrounder No. 
1858, June 5, 2005, at www.heritage.org/Research/Reports/2005/06/
Alternatives-to-Amnesty-Proposals-for-Fair-and-Effective-Immigration-
Reform.
---------------------------------------------------------------------------
  <bullet> National Preparedness and National Risk.--The legislation 
        establishing the QHSR required DHS to assess National 
        preparedness. In addition, the QHSR established as a priority 
        ``national-level homeland security risk assessments'' (p. 65). 
        These requirements seem intuitively valuable. In practice, they 
        would likely amount to little more than ``shelfware,'' studies 
        that have no meaningful application. There is no analytical 
        basis to determine if these assessments are achievable and 
        meaningful. Understanding risk and preparedness requires 
        context. There are so many variables in each kind and type 
        assessment, and they are so complex and different, that is 
        difficult to imagine how aggregating them would provide useful 
        insights into mitigating risks.\14\
---------------------------------------------------------------------------
    \14\ For an assessment of risk management see, James Jay Carafano, 
testimony before the Sub-Committee on Transportation Security and 
Infrastructure Protection, Committee on Homeland Security United States 
House of Representatives June 24, 2008, at homeland.house.gov/
SiteDocuments/20080625151302-26534.pdf (April 25, 2010).
---------------------------------------------------------------------------
                            recommendations
    Congress and DHS should work together to address the shortfalls in 
the Department's analytical capabilities.
  <bullet> Congress should demand an action plan.--DHS must have a 
        program to institutionalize multidisciplinary analysis, 
        including expertise in complex systems analysis in the National 
        homeland security enterprise.\15\
---------------------------------------------------------------------------
    \15\ James Jay Carafano and Richard Weitz, ``Complex Systems 
Analysis: A Necessary Tool for Homeland Security,'' Heritage Foundation 
Backgrounder No. 2261, April 16, 2009, at www.heritage.org/Research/
Reports/2009/04/Complex-Systems-Analysis-A-Necessary-Tool-for-Homeland-
Security.
---------------------------------------------------------------------------
  <bullet> DHS should integrate complex systems analysis into a net 
        assessment office.--Net assessment, a widely used tool within 
        the intelligence community, complements and contributes to 
        complex systems analysis. Net assessment is based on the 
        understanding that all National security challenges are a 
        series of actions and counteractions between competitors. The 
        purpose of examining these actions and counteractions is to 
        assess how these competitions could develop in the future. The 
        Department of Homeland Security has considered establishing an 
        Office of Net Assessment within its policy and planning 
        directorate. This office should include developing expertise in 
        employing complex systems analysis to develop policy 
        recommendations.\16\
---------------------------------------------------------------------------
    \16\ James Jay Carafano, Frank J. Cilluffo, Richard Weitz, and Jan 
Lane, ``Stopping Surprise Attacks: Thinking Smarter About Homeland 
Security,'' Heritage Foundation Backgrounder No. 2026, April 23, 2007, 
at www.heritage.org/Research/HomelandDefense/bg2026.cfm (April 13, 
2009).
---------------------------------------------------------------------------
  <bullet> DHS should add complex systems analysis to the Homeland 
        Security Professional Development Program.--Homeland security 
        needs the foundation of a professional development system that 
        will provide the cadre of leaders required to meet the demands 
        of the 21st Century. This foundation must include education, 
        training assignments, and accreditation tools that can help 
        develop professionals for homeland security and other critical 
        interagency National security activities. Developing expertise 
        in critical systems and multidisciplinary analysis should be a 
        core component of any professional development curriculum. The 
        government should have a ``brick and mortar'' homeland security 
        university dedicated to teaching these and other essential 
        National security management, leadership, and decision-making 
        skills.\17\
---------------------------------------------------------------------------
    \17\ James Jay Carafano, ``Missing Pieces in Homeland Security: 
Interagency Education, Assignments, and Professional Accreditation,'' 
Heritage Foundation Executive Memorandum No. 1013, October 16, 2006, at 
www.heritage.org/Research/HomelandSecurity/em1013.cfm (April 25, 2010).
---------------------------------------------------------------------------
                no. 2 enhance cooperation with congress
    One clear advantage of conducting the QHSR in the first year of the 
administration is that it allows the Secretary to undertake a through 
strategic assessment and use the review to help establish long-term 
goals as well as engage the Congress on the most critical homeland 
security priorities. In order for this effort to be as efficient and 
effective as possible, a permanent QHSR office must be established and 
maintained to undertake preparatory efforts, including working with the 
Congress on determining the statutory requirements for the report; 
conducting long-term analytical studies to support QHSR analysis; and 
coordinating with the interagency community and State, local, Tribal, 
private sector, and international partners. Having this office in place 
and conducting the long-term preparations for the QHSR would 
significantly reduce the time and effort required for a new 
administration to undertake a review during its first year.
    The QHSR should also be seen as an on-going process that includes 
not only developing statutory reporting requirements, but also 
consultation during the review process and after the report is 
delivered. The review can and should be the premier instrument for 
strategic dialogue with the Congress, but established procedures for 
systematic consultation should be implemented and maintained during the 
years before and after the submission of the report. A permanent QHSR 
office could best facilitate this activity.
                            recommendations
    Congress can also take additional actions to ensure that the 
dialogue between the DHS and other Federal agencies and the Legislative 
branch is improved. Congress should:
  <bullet> Consolidate jurisdiction over DHS into single committees in 
        each chamber.--Congress cannot serve as effective partner in 
        assessing and implementing the QHSR as long as oversight of DHS 
        remains fractured and diffuse. The final report of the 9/11 
        Commission reaffirmed the importance of fixing Congressional 
        oversight. The commission held that ``Congress should create a 
        single, principal point of oversight and review for homeland 
        security. Congressional leaders are best able to judge what 
        committee should have jurisdiction over this department [DHS] 
        and its duties. But we believe Congress has the obligation to 
        choose one in the House and one in the Senate, and that this 
        committee should be a permanent standing committee with a 
        nonpartisan staff.'' As the report also noted, one expert 
        witness appearing before the commission testified that the lack 
        of effective Congressional oversight is perhaps the single 
        greatest obstacle impeding the successful development of 
        DHS.\18\
---------------------------------------------------------------------------
    \18\ Carafano and Heyman, ``DHS 2.0,'' p. 19.
---------------------------------------------------------------------------
  <bullet> Create an Under Secretary for Policy and Planning.--The 
        Under Secretary should serve as the Secretary's chief policy 
        official within the Department. The responsibilities of the 
        Under Secretary for Policy should include: (1) Coordinating DHS 
        policy, (2) establishing and directing a formal policymaking 
        process for the Department and oversee a policymaking board, 
        (3) conducting long-range policy planning, (4) preparing 
        critical strategic documents, (5) conducting program analysis, 
        and (6) preparing net assessments.\19\
---------------------------------------------------------------------------
    \19\ James Jay Carafano, Richard Weitz, and Alane Kochems, 
``Department of Homeland Security Needs Under Secretary for Policy,'' 
Heritage Backgrounder No. 1788, August 17, 2004, at www.heritage.org/
Research/Reports/2004/08/Department-of-Homeland-Security-Needs-Under-
Secretary-for-Policy.
---------------------------------------------------------------------------
  <bullet> Establish a bipartisan caucus that meets regularly to 
        consider issues affecting the National homeland security 
        enterprise.--Congress currently lacks a forum to inform members 
        on these issues in a holistic manner. A caucus could help 
        fulfill this role.\20\
---------------------------------------------------------------------------
    \20\ Heyman and Carafano, ``Homeland Security 3.0,'' p. 5.
---------------------------------------------------------------------------
             no. 3 establish priorities for implementation
    The greatest virtue of the QHSR is that it provides a framework to 
organize the roles and missions of the Department in terms of strategic 
ends, ways, and means. As Professor Cindy Williams at MIT pointed out 
in an authoritative study in 2008, ``[f]ive years later, the nation's 
homeland security effort is anything but unified. Core legacy 
organizations that migrated into DHS still generally set their own 
agendas, often with strong backing from supporters in Congress.''\21\ 
The QHSR offers a mechanism to more thoroughly integrate and prioritize 
the operations of the Department.
---------------------------------------------------------------------------
    \21\ Cindy Williams, ``Strengthening Homeland Security: Reforming 
Planning and Resource Allocation,'' Report for the 2008 Presidential 
Transition Series of the IBM Center for the Business of Government 
(Washington, DC: IBM, 2008), p. 6.
---------------------------------------------------------------------------
    The QHSR rightly recognizes that the Department must serve as the 
steward of a National homeland security enterprise. The Department and 
the Congress should give highest priority to the initiatives that will 
strengthen the leadership role of DHS over the National enterprise.
                            recommendations
    In particular, Congress and the administration should strengthen 
the Department's role in:
  <bullet> Resiliency and Response.--The administration is currently 
        rewriting HSPD-7 and HSPD-8, two key Presidential directives 
        that govern the protection of critical infrastructure and 
        disaster preparedness. The administration should strengthen the 
        Department's leadership role in both policy directives. In 
        particular, the Federal Government should develop and implement 
        a National planning capability for preparedness and response to 
        guide resource allocation and investment across the Federal 
        Government and to State and local communities. In particular, 
        the Integrated Planning System needs to be revitalized and 
        implemented and renewed emphasis must be given to disaster 
        scenarios including updating them to address emergent threats 
        such Electromagnetic Pulse and armed assaults on the U.S. 
        homeland.\22\
---------------------------------------------------------------------------
    \22\ James Jay Carafano, ``Preparations Means Planning Ahead of 
Time,'' Washington Examiner, December 14, 2009, at 
www.washingtonexaminer.com/opinion/columns/Preparation-means-planning-
ahead-of-time-8655242-79171502.html (April 25, 2010); Matt A. Mayer and 
James Jay Carafano, ``National Disaster Planning Slowed by Inadequate 
Interagency Process,'' Heritage Foundation Backgrounder No. 2079, 
October 24, 2007, at www.policyarchive.org/handle/10207/bitstreams/
13040.pdf; Jena Baker McNeill and Richard Weitz, ``Electromagnetic 
Pulse (EMP) Attack: A Preventable Homeland Security Catastrophe,'' 
Heritage Foundation Backgrounder No. 2199, October 8, 2008, at 
www.heritage.org/Research/Reports/2008/10/Electromagnetic-Pulse-EMP-
Attack-A-Preventable-Homeland-Security-Catastrophe; James Jay Carafano, 
``Lessons from Mumbai: Assessing Armed Assault Threats to the United 
States,'' Heritage Foundation Backgrounder No. 2219, December 10, 2008, 
at www.heritage.org/Research/Reports/2008/12/Lessons-from-Mumbai-
Assessing-Armed-Assault-Threats-to-the-United-States.
---------------------------------------------------------------------------
  <bullet> International Leadership.--The Department has substantial 
        international responsibilities yet lacks technical and 
        statutory authority to engage overseas partners. In particular, 
        the Department should have expanded authority in providing 
        international assistance and development. The United States 
        should establish security assistance sales, lease, and grant 
        programs that allow DHS to assist countries in obtaining 
        equipment, support, and financing for homeland security 
        functions. One option, for example, would be to establish a 
        ``security for freedom fund'' to provide the Department a 
        Congressional authorized program for assisting other nations in 
        developing their homeland security systems.\23\ The Department 
        should also establish a formal, integrated education and 
        training program similar to IMET. This would include training 
        in the United States, mobile training teams that would deploy 
        overseas, and support for international programs.\24\ Research 
        and development is another area of international cooperation. 
        The Support Anti-Terrorism by Fostering Effective Technologies 
        (SAFETY) Act lowered the liability risks of manufacturers that 
        provide products and services used in combating terrorism. The 
        act, passed in 2002, protects the incentive to produce products 
        that the Secretary of Homeland Security designates as 
        ``Qualified Anti-Terrorism Technologies.'' DHS should work to 
        engage other nations in a serious dialogue on expanding the 
        umbrella of liability protection for developing effective anti-
        terrorism technologies by encouraging cooperative and 
        reciprocal liability protection programs.\25\
---------------------------------------------------------------------------
    \23\ James Jay Carafano and Henry Brands, ``Building a Global 
Freedom Coalition with a New Security for Freedom Fund,'' Heritage 
Foundation Backgrounder No. 2236, February 4, 2009, at 
www.heritage.org/Research/Reports/2009/02/Building-a-Global-Freedom-
Coalition-with-a-New-Security-for-Freedom-Fund.
    \24\ James Jay Carafano and Richard Weitz, ``Enhancing 
International Collaboration for Homeland Security and 
Counterterrorism,'' Heritage Foundation Backgrounder No. 2078, October 
18, 2007, at s3.amazonaws.com/thf_media/2007/pdf/bg2078.pdf.
    \25\ James Jay Carafano, ``Fighting Terrorism, Addressing 
Liability: A Global Proposal,'' Heritage Foundation Backgrounder No. 
2138, May 21, 2008, at http://safetyactconsultants.com/
yahoo_site_admin/assets/docs/Heritage_Foundation_SAFETY_Act_5-21-
2008.32823618.pdf.
---------------------------------------------------------------------------
  <bullet> Counterterrorism Operations.--The Intelligence Reform and 
        Terrorism Prevention Act of 2004 neglected DHS's role in 
        counterterrorism operations. Congress and the administration 
        should consider whether the Department should play a more 
        prominent leadership role in the Terrorist Screening Center and 
        the National Counterterrorism Center. In addition, Congress and 
        the administration should consider how to better integrate the 
        myriad of counterterrorism capabilities, operations, and 
        activities in the command, possibly through a ``joint'' 
        structure similar to that employed by the U.S. military 
        Combatant Commands or by emulating operations such as those 
        conducted by Joint Interagency Task Force South in Key West. 
        The President should issue an Executive Order establishing a 
        National domestic counterterrorism and intelligence framework 
        that clearly articulates how intelligence operations at all 
        levels should function to combat terrorism, while keeping 
        citizens safe, free, and prosperous.\26\
---------------------------------------------------------------------------
    \26\ Heyman and Carafano, ``Homeland Security 3.0,'' pp. 14-17.
---------------------------------------------------------------------------
  <bullet> Cyber Leadership.--The QHSR emphasizes the important role 
        the Department should play in promoting cybersecurity knowledge 
        and innovation (pp. 56-57). The top priority of this effort 
        should be in promoting cutting-edge research and developing the 
        ``human capital'' for National cybersecurity leadership. The 
        United States needs leaders who understand the need for 
        strategies of resiliency--methods for ensuring that basic 
        structures of global, National, and local economies remain 
        strong after a cyber attack, other malicious acts, or 
        disasters. A cyber-strategic leadership program is necessary 
        for constructing a resiliency strategy for the 21st Century. 
        Cyber-strategic leadership is a set of knowledge, skills, and 
        attributes essential to all leaders at all levels of government 
        and the private sector. The Obama administration should build 
        on the National Security Professional Development process to 
        educate, certify, and track National security professionals. 
        This program should be modified based on the experience of the 
        past 2 years in attempting to implement the program and be used 
        to develop leaders skilled in cyber-strategic leadership and 
        other critical National security missions. Research is also 
        vital. A 2007 Computer Science and Telecommunications Board 
        research report rightly concluded that Government's research 
        agenda is deeply flawed. The report goes on to lay out an 
        appropriate research agenda, including such issues as deterring 
        would-be attackers and managing the degradation and 
        reconstitution of systems in the face of concerted attacks.\27\
---------------------------------------------------------------------------
    \27\ Computer Science and Telecommunications Board, Toward A Safer 
and More Secure Cyberspace (Washington, DC: National Academies Press, 
2007); The White House, ``Executive Order: National Security 
Professional Development,'' May 2007, at www.whitehouse.gov/news/
releases/2007/05/20070517-6.html (December 2, 2008); James Jay 
Carafano, ``Missing Pieces in Homeland Security: Interagency Education, 
Assignments, and Professional Accreditation,'' Heritage Foundation 
Executive Memorandum No. 1013, October 16, 2006, at www.heritage.org/
Research/HomelandSecurity/em1013.cfm.
---------------------------------------------------------------------------
    Thank you for the opportunity to address the QHSR and the next 
steps that the Department and the Congress should take together to keep 
the Nation safe, free, and prosperous. I look forward to your 
questions.

    Mr. Carney. Thank you, Dr. Carafano.
    I want to thank the witnesses for their testimony. I will 
remind each Member that he will--and there is no she right 
here--will have 5 minutes to question the panel. I now 
recognize myself for 5 minutes.
    Deputy Secretary Lute, according to numerous GAO and Office 
of Inspector General reports, in addition to the Department's 
own budget request process, the Department lacks a sufficient 
acquisition workforce. We will start with that. Fortunately, 
the budget seeks to expand this workforce. However, as it 
currently stands, there are shortages in every aspect of the 
acquisition workforce.
    Notwithstanding this fact, the 9/11 Act specifically 
requires the Department to review and assess the Department's 
mechanisms for turning the requirements developed in the QHSR 
into an acquisition strategy. How are we going to do that?
    Ms. Lute. Thanks, Mr. Chairman, for that question.
    The way--strategy is the connection of end, ways and means, 
and what are you trying to do? At the end of the day, what does 
success look like? The QHSR document lays that out. It is the 
vision of a safe, secure, resilient place where we can thrive. 
It also lays out all the elements of the homeland security 
enterprise that needs doing.
    Connected to that will be the results of the Bottom Up 
Review that looks specifically at the Department of Homeland 
Security.
    Mr. Carney. Is an acquisition strategy going to be part of 
the BUR?
    Ms. Lute. The third part of our effort here is the 2012 
submission and the 2012 to 2016 FYHSP. Taken together, all 
three of those will lay out the ends we are trying to achieve, 
the ways in which we are trying to do that, with a focus on 
three specific things.
    How do we execute our mission sets? How do we do it 
programmatically? What are the activities involved in those 
programs? Then what are the budgetary resources in 2012 and in 
the out-years over the quadrennial that will feed that process?
    How will we execute those mission sets? How will we run 
ourselves? How will we account for the resources that are 
entrusted to us?
    Mr. Carney. You will be satisfied that that will meet the 
statutorily mandated requirement for the 9/11 Act, right?
    Ms. Lute. In the provision of acquisitions----
    Mr. Carney. Yes, that is what I meant.
    Ms. Lute [continuing]. I am satisfied that it will 
articulate to Congress our vision of how to address that 
question.
    Mr. Carney. As long as we are on the line of financial 
issues, the Department has yet to produce a clean audit. The 
QHSR and the BUR hopefully will reveal what financial 
management structures is going to be in place.
    How far along are you in aligning the financial structure 
with the Department's missions, goals, strategies, et cetera?
    Ms. Lute. Part of the--part of the BUR process, Mr. 
Chairman, has been to look at exactly this set of issues. We 
have developed in the Department over the past several years a 
playbook on internal controls which are precisely to get to the 
heart of careful and competent stewardship of resources, 
leading to clean audits across the board for all of our 
operating components in the headquarters, as well. We are 
looking at that.
    We have a problem in the Department, Mr. Chairman. We don't 
have budget comparability currently. We cannot compare how much 
we spend on personnel across our components in any consistent 
way. We don't in consequence have very good costing models. We 
know what we are spending, but we don't have very good 
visibility into how the cost actually of a service or a 
commodity relates to what we are spending.
    We have been working on that as part of the Bottom Up 
Review process and going forward into the 2012 build and the 
2012-2016 FYHSP. We are addressing exactly all of these issues 
in order to position the Department and profile the Department 
correctly moving forward.
    Mr. Carney. So we will see the Department's plan--I am 
getting a handle on that--in the BUR, in the Bottom Up Review?
    Ms. Lute. You will see the resource implications in the 
2012 submission----
    Mr. Carney. We understand the resource implications. We 
want to know how you are going to fix it.
    Ms. Lute. That is part of that, as well, because the other 
thing we have to do, Mr. Chairman, which I know you appreciate 
especially, is we need to fundamentally retool our performance 
measures. So budgetary alignment, account alignment, resource 
prioritization, performance measure, re-profiling, that will 
all come in the 2012 submission based on the activity review in 
the BUR and the findings in programmatic areas of emphasis in 
the BUR, which reflect the strategic imperatives laid out in 
the QHSR.
    Mr. Carney. Okay. Let's talk about the BUR just for a 
moment here to start. The BUR infers that you are doing a deep 
dive, if I can characterize it that way, into the Department 
and each of the components to determine the programming needs.
    Ms. Lute. Yes.
    Mr. Carney. How many times did the staff working on the BUR 
meet specifically with representatives from each component?
    Ms. Lute. What I can tell you is we have spent hundreds of 
hours on the activities review in the Department with the 
components together. I have held numerous meetings with the 
component leadership. We can go back and see if we can compile 
a list of the actual meetings.
    Mr. Carney. Yes, please do. What was the nature of those 
meetings? What happened? What was the----
    Ms. Lute. What we said was, look, we have just come out in 
the QHSR with a strategic vision and a sense of mission 
priorities. Within those mission priorities, we lay out goals. 
What will it take to prevent another terrorist attack? What 
will it take to secure our borders, enforce our immigration 
laws, ensure cybersecurity and resilience in the face of 
disasters? How do we know success when we see it? What do we 
need to be doing?
    We then looked at what we were currently doing, because the 
QHSR looks at more than the Department. So we said it takes an 
enterprise. The Department can't do all that needs doing. But 
what is the Department doing in each of these mission areas? 
How is what we are doing every single day matching up to those 
requirements? Where are the gaps? What needs strengthening? 
What are we doing pretty well and how can we leverage those 
successes?
    Where do we need to innovate? Again, we took a 4-year 
forward-looking view of the kinds of things that we would want 
to strengthen from an activities level. That was the nature of 
the conversation.
    Mr. Carney. Okay. I am way over time. I yield 5 minutes to 
the gentleman from Florida.
    Mr. Bilirakis. Thank you--okay, didn't work.
    I would like to return to an issue that I raised during my 
opening statements about conflicts I believe exist between the 
QHSR and the Department's fiscal year 2011 budget request. The 
QHSR recognizes the border security missions of the Department 
and states that the first priority is achieving effective 
control of the physical borders and approaches to the United 
States.
    However, the fiscal year 2011 budget submission fails to 
include funds or plans to increase control over the border. We 
have 936 miles under control now and no expectation that we 
will secure more of the border over the next 2 years. How can 
there be such a wide disparity between the budget request and 
the QHSR? Does the Department have a time frame for when we 
will have more miles of the border under control? How long will 
it take to have even half of the border under effective 
control?
    Ms. Lute. Congressman Bilirakis, what I can say to you is 
that the QHSR, the BUR, and the 2012 budget process is the 
three-part framework that we have used for that. But we were 
working on the QHSR when we did the 2011 submission. In a 
number of areas, that submission reflects the five-part mission 
priorities that I outlined.
    As the Secretary has said, the southwest border, the border 
of the United States and the northern border have never been 
more secure. The budget reflects a commitment in that regard 
with respect to CBP agents, the presence of ICE, and other 
assets at the border, the improvement of border ports of entry, 
for the first time ever, 100 percent scanning of southbound 
rail traffic, for example, and other initiatives.
    Mr. Bilirakis. Dr. Carafano, would you like to comment?
    Mr. Carafano. Well, my observation is--and this goes back 
to my comment on analytics, which is, where is the assessment 
of the complex system that suggests that these investments are 
right or that the administration in looking forward to looking 
at how it is going to deal with immigration reform, that that 
is right?
    You know, we know for a fact that people vote with their 
feet, right? We have seen, actually, as we increase border 
security over the years, we actually saw an increase in 
unlawful population in the United States because people just 
stayed. We also saw a decrease because people left because the 
economy turned down.
    So we know that we can kind of affect people's behavior. In 
1986, we did a broad amnesty, and the result of that was we had 
an enormous increase in the unlawful population in the United 
States. Now we are talking about doing a broad amnesty again, 
which would seem to me would overwhelm all security efforts.
    You know, looking at things--that we are inspecting 100 
percent of southbound rail, okay, but I am not really sure--
relevant to that.
    Now, you know, we could debate all these points as a matter 
of strategy--and I think that is fine--but the point is, is 
what the QHSR certainly did not do is it--and I don't believe 
the Department still has--is really kind of an analytical 
foundation to really justify their assessments in the context 
of all the issues that they are dealing with, commerce, trade, 
transnational crime, and immigration.
    Mr. Bilirakis. Thank you.
    Madam Secretary, continuing along the line, the QHSR 
advocates for the enhancement of community disaster response 
programs. It advocates for that. Certainly as a member from an 
area that frequently experiences hurricanes, I believe in the 
need for individual and families to be well informed and 
prepared in the event of disasters, which is why I am pleased 
with the QHSR's emphasis of this issue.
    However, while on the one hand the QHSR advocates for 
enhanced community preparedness efforts and mentions the 
Citizens Corps program by name, on the other hand, the budget, 
the 2011 budget request proposed to eliminate the Citizens 
Corps program. Can you explain that?
    Ms. Lute. Again, Congressman, the QHSR is directly going to 
inform the 2012 budget build and the coming quadrennial and the 
2012-2016 FYHSP. On the whole question of resilience and 
preparedness in the face of disaster, frankly, the Nation has 
learned a lot of lessons from Florida. The Department of 
Homeland Security benefits from Craig Fugate, who is now the 
head of FEMA.
    What do we base our resilience argument on? A three-part 
structure that you yourself identified. Empowered individuals, 
individuals who have the information they need and the tools 
they need to be able to withstand disaster, respond, and aid 
their neighbors when necessary.
    Capable communities, precisely as you identify, communities 
that have the training, equipment, knowledge, of the 
understanding of their vulnerabilities, as well as their 
strengths, to be able to respond to their needs and assist 
others, again, in a mutual aid fashion.
    Then, finally, we highlight the need for a responsive 
Federal system who understands its place and knows its 
opportunities for leverage and comparative advantage to assist 
when disaster strikes. It is all three of these pieces that we 
are working towards, both programmatically within the 
Department, from a resource perspective, and then as we 
importantly engage not only with Congress, but with State and 
local, municipal leaders, as well, to get this balance right.
    Mr. Bilirakis. Okay, Secretary Heyman, as I said before, 
said that the administration had a QHSR in mind while crafting 
the fiscal year 2011 budget. Was he wrong?
    Ms. Lute. No, also, Congressman, as I have said, we looked 
at 2011 as a partial down payment on the direction we were 
headed with the QHSR, but we were explicitly pointing to the 
2012 build and the 2012-2016 FYHSP to reflect the priorities 
that we outlined through the QHSR-BUR process.
    Mr. Bilirakis. Okay. Thank you. I yield back. Thank you, 
Mr. Chairman.
    Mr. Carney. Thank you.
    The Chair now recognizes my good friend from Texas, Mr. 
Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    I thank the witnesses for appearing, as well.
    I am concerned about a statement that was made. I am 
confident that there will be others who will want to have some 
additional evidence presented, so I will simply allow the 
deputy secretary to elaborate.
    You said the border is as secure now as it has ever been--
perhaps I am paraphrasing, and I am not quoting you exactly, 
but if you would like to elaborate on that, I would give you 
the opportunity to at this time.
    Ms. Lute. Congressman, I was reflecting what the Secretary 
herself has said recently, drawing on her deep experience as a 
former Governor of Arizona and deep experience with the 
southwest border and the understanding that we have in the 
Department of Homeland Security the border is more secure than 
it has ever been.
    Mr. Green. All right, let me just--as a follow-up to border 
security--ask about something that has been promoted as of 
late, and that is having the National Guard move to the border. 
In assessing this type of circumstance, how would what we are 
proposing address having the National Guard on the border?
    Ms. Lute. The potential deployment of the National Guard 
reflects, frankly, its ability potentially to contribute 
additional capabilities to law enforcement agencies in their 
border security mission. It is just one of a number of options 
that are being considered.
    Mr. Green. In considering this, I am confident that it will 
be done this way, but I will ask just for clarity purposes, 
would you also talk to the various military persons who would 
be in the loop? You are obviously a part of the Executive. 
Because we have two wars, one in Iraq, one in Afghanistan, and 
we have troops deployed. Do you--in making this decision, you 
would not just simply make that as an internal decision. There 
is a lot more to it than simply deciding to deploy troops, I am 
sure you agree, deploy the Guard.
    Ms. Lute. Congressman, forgive me for smiling. The Lutes 
are very familiar with the requirements that you outlined. In 
the interest of full disclosure, my husband works at the White 
House for the President on Afghanistan and Pakistan and 
previously served on the issues relating to Iraq, as well.
    We are very mindful of the requirements. I am both 
personally--we are institutionally, and we are in a very robust 
dialogue with Department of Defense.
    Mr. Green. Thank you. I mention it because I am not sure 
that every person who says, ``Send the Guard,'' has thought 
through all of what that entails. I want border security. I 
think that we should have proper personnel there. I assume that 
we will review the adequacy of personnel and make the proper 
adjustments. True or false?
    Ms. Lute. We will.
    Mr. Green. Now, with reference to the Bottom Up Review, can 
you kindly for me in your mind give me what bottom--where is 
the bottom in the Bottom Up? Where is that starting point?
    Ms. Lute. That is a very fair question, Congressman. The 
bottom actually begins with an activity review. It is not a 
zero-based budgeting or a zero-based review, as if we were 
starting with a clean state and only mission requirements.
    This looks at our mission activities that are undertaken by 
the operating components and compares them against the mission 
sets that we say are essential in the QHSR for achieving that 
vision of a secure homeland.
    Mr. Green. What is the anticipated--you may have given the 
answer--but what is the anticipated completion date of the BUR?
    Ms. Lute. The analytic work of the BUR is completed, and we 
are looking to finish the interagency review of our work 
shortly.
    Mr. Green. Could you define shortly please?
    Ms. Lute. Thank you, Mr. Chairman. I would expect that 
before the end of May.
    Mr. Green. From time to time, it has been my experience, is 
that we don't always meet the goals that we set for ourselves. 
If you find that you are running long as opposed to short, 
meaning short, completing it early, long, you are going to go 
past the goal, the anticipated completion date, how would we 
receive notice of that?
    Ms. Lute. Unfortunately, Congressman, there is no more 
early for us here. But I would, as I have in the past, be in 
touch with the Chairman on the prospects for delivery.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Carney. Thank you, Mr. Green.
    Mr. Pascrell, do you have questions?
    Mr. Pascrell. Thank you, Mr. Chairman.
    Deputy Secretary Lute, thank you for your service, 
extending beyond homeland security. I have questions about the 
bureaucracy of the Department which you represent. I looked 
through the chronology since August 2007 to the present time 
about reviewing that bureaucracy and the Department.
    If I have stressed one thing as a Member of this 
committee--and you and I have talked about this--it is that the 
bureaucracy itself is as great a threat to our National 
security as anything else. That is my opinion. I have tried to 
point out how I think that plays out within the Department 
itself.
    I think it had something to do with the confusion on 
December 25 last year, which is not the total responsibility of 
Homeland Security. I understand that. You are a collector. You 
are not making decisions on the intelligence level, your 
Department, that is.
    When we created the Department in the wake of September 11, 
it was the largest United States Government reorganization in 
over 50 years, since the Department of Defense was created in 
1947. We consolidated 22 separate agencies into one Department. 
It is the third-largest in the Government behind only the 
Department of Defense and Veterans Administration.
    So this is a big deal we are talking about here. When you 
have that realization in mind, it is not hard to understand 
that why we desperately need to re-evaluate everything within 
DHS to find all the missing links and efficiencies and why the 
committee on both sides of the aisle is very impatient and has 
a lot of anxiety about waiting beyond the scheduled time, 
because we are talking about the defense of this country and 
protecting our neighborhoods, so we cannot be late with any 
reports, no excuses accepted.
    Madam Secretary, can you talk about what steps you have 
taken in the Quadrennial Homeland Security Review and within 
your long-term plan to help cut down on the layers of 
bureaucracy and get the Department to work more effectively? 
Can you tell us, for the record?
    Ms. Lute. Thanks, Congressman. We have talked. We are both 
from New Jersey. There are no excuses for what is not done, but 
I will explain to you what we have done and what we will do.
    I will also say to you that I am personally answerable to 
the Secretary for the progress or lack of it that we have made 
on the QHSR and the BUR, in the 2012 build process, and the 
2012-2016 FYHSP, and the totality of this comprehensive 
examination of the Department that you are talking about.
    You talk also about bureaucracy. Congressman, I am an 
operator. I spent 30 years operating in large, far-flung, 
unwieldy bureaucracies. I began my career in the Army in the 
1970s. I spent a lot of time in the United Nations. Now I am in 
homeland security.
    So I would respectfully say to you, bureaucracy and 
homeland security, compared to what? This is a Department of 
210,000 full-time civil servants approximately, Coast Guardsmen 
and others, 207,000 of which are in operating agencies. It is a 
headquarters bureaucracy of 3,000 people for this Department.
    Mr. Pascrell. Very small administration.
    Ms. Lute. Very small. So when you speak bureaucracy, what I 
see are men and women every single day who come into work 
supporting the operational activities that we have at the 
borders, at the airports, on the water, in defense of security 
of this homeland.
    So I take very seriously everything you say, particularly 
defense of the homeland and the responsibilities we have. It 
resonates with me personally, having begun my professional 
career as a soldier.
    What we are doing is taking a look at our activities 
against the QHSR. In the QHSR, we said, this is what we are 
aiming for, a safe, secure, resilient place where the American 
way of life can thrive, protect ourselves against terrorism and 
other hazards. What does that mean we need to do? It means we 
need to do the five mission sets that we have laid out in the 
QHSR.
    How do we do that? We need to look ourselves in the 
Department, and we have done this through the BUR process 
comprehensively, including an examination--the unglamorous 
knuckle drill of examining the plumbing and wiring of the 
budget processes of the Department, the acquisition processes, 
our account structures, our organizational fidelity and 
coherence, as well.
    There are a number of areas that we can streamline. When 
you are standing up a Department, when you are starting up an 
activity--and I have done it several times in my career--I can 
tell you, nobody is lining the streets tuning up the band 
because you are getting ready to march down the aisle. 
Everybody is waiting to see how you can fall.
    Congress has been remarkably supportive of this Department 
and this enterprise, and we appreciate that. We have a long way 
to go. We know that, as well. We are going to--we are going to 
look at how we can consolidate our operational activities 
against the mission sets that are articulated in the QHSR. We 
are going to look at the value proposition of the headquarters. 
How can headquarters add value to the frontline operators, to 
the men and women who are opening trunks, inspecting suitcases, 
manning the waterways, ensuring maritime safety and security, 
as well?
    But we are beginning, Congressman, with a very lean 
bureaucracy to begin with.
    Mr. Pascrell. Thank you.
    Mr. Chairman, I think that I have confidence in Under 
Secretary Lute to follow through on what you have talked about 
many times, Members of this committee, the Ranking Member, Mr. 
Green. There are many impediments that we create ourselves or 
allow to exist.
    I hope that this committee and the administration will be 
strong enough and courageous enough not only to see reports and 
make reports, but to follow through on recommendations, because 
we are heading towards consolidation. Otherwise, what are we 
doing here?
    Now, are we going to have the courage to support your 
efforts and maybe instead of having 22, we have 8, instead of 
having X amount of people, should all of those people--207,000, 
210,000--be in one Department? Should parts of the Department 
be other places? Has the intelligence breakdowns we have had 
indicate that there should be not only a collection--Homeland 
Security should not only be a collection agency for 
intelligence, but should be part of the very apparatus which 
seeks to find out who is trying to harm us?
    These are going to be--you know, we have got to make those 
decisions, too. We have personal responsibility. I remember 
when the select committee went to a full committee, this 
Homeland Security, and it was stacked with Chairmen from other 
subcommittees. Well, you know what the heck happened. They all 
wanted to fight for turf, and then one person wouldn't show up 
because he was insulted that his committee wasn't even--I mean, 
it was a zoo. You would never know that you were protecting the 
United States of America and our neighborhoods. It was insane.
    I hope we will have the courage to go to the next step. 
That is all I hope. Thank you.
    Mr. Carney. Thank you, Mr. Pascrell.
    I guess I would like to echo some of his sentiments, Mr. 
Pascrell's sentiments, that, you know, despite appearances, we 
are pretty smart here, and we have--truly, I know. We have 
talked about organization of Homeland Security many times, 
privately, you know, over beers at the club or on the floor or 
whatever.
    That is a question I have. You know, and we don't get a 
sense of that from the QHSR, the QHSR--or I hope maybe we will 
from the BUR--is reorganization considered in either one of the 
documents really?
    Ms. Lute. So, Chairman, reorganization is a radioactive 
word.
    Mr. Carney. Okay, let's say moving assets.
    Ms. Lute. Well, there has been a lot of moving assets and 
there has been a lot of churn masquerading as reorganization. 
It covers a multitude of sins. Churn is debilitating to an 
organization. It is debilitating to a workforce.
    People want some very fundamental things when they show up 
for work every single day. They want to have the training, the 
tools, and the leadership, and the frontline supervision 
competent to help them get a job done. They want to have an 
organizational structure that is built to purpose. What are we 
trying to do? Are we organized well to do it? What pieces of 
the effort that it takes to achieve that purpose are we 
missing? Or else who has got it? Do I have replicable models of 
success for getting it when I need it? Or do we encounter every 
problem as if for the first time?
    Mr. Carney. I agree. We really want to help you with that, 
but we can't if we have a QHSR that doesn't answer the 
questions required statutorily, and we can't do it if we don't 
see the BUR.
    Madam Secretary, I have to tell you, from what we have 
talked about over the last roughly hour or so, everything that 
wasn't in the QHSR is supposed to be in the BUR. What is not 
going to be in the BUR is going to be in the 2012 budget 
report? Am I getting that right? Not even the 2011, but the 
2012 budget report?
    Ms. Lute. Yes, sir.
    Mr. Carney. Can I ask, when exactly--within a month or 2--
will the first QHSR actually be completed, given all the 
components that you have mentioned? The goal posts seem to be 
going further--this is the bad dream where I can't quite get to 
the end of the hall as fast as I run.
    Ms. Lute. I am living the dream, Mr. Chairman. I guess what 
I would tell you is, beginning last year, we set ourselves out 
an 18-month process to execute these three pieces of the 
puzzle. Congress originally gave the Department of Homeland 
Security 2 years to do the QHSR as its outlined statutorily.
    I think that is about the right amount of time that you 
need to fully conduct an analytic examination of the mission 
sets that need doing, the strategy. What are we trying to do? 
How are we going to do it? What does it take to do that?
    I think that we learned some lessons. This shouldn't 
straddle a transition of an administration. It essentially 
means you are at a standing start, not a sitting start, not 
lying down, but a standing start when a new administration 
comes in.
    There is an enormous requirement for stakeholder outreach 
that we have. We had no precedent. We had no experience in the 
Department. This was the first ever that we have done. What we 
are building towards is this three-part submission.
    I think the specific answer to your question, Mr. Chairman, 
is when the budget is presented to Congress for 2012, all of 
the pieces of the puzzle will be in place. However, you can 
also say that we are required by the statute governing the 
QHSR--and I believe that we have been faithful to this--to 
engage in comprehensive consultations with a number of 
stakeholders, including Congress, and we will certainly 
continue that process.
    Mr. Carney. Well, I appreciate the consultation, but now I 
know how my dissertation committee felt when I didn't get my 
chapters in on time. But, you know, that is what we are looking 
at.
    Dr. Carafano, you sat on the QHSR advisory board. Great 
job. I really want to hear your opinion of the process, the 
pros, the cons, et cetera. Just hold forth, please.
    Mr. Carafano. Yes, well, I would actually just like to 
address this very specific issue. You know, it is important for 
Congress to ask tough questions, but it is also important for 
Congress to ask questions the Department can actually answer.
    I think one of the lessons learned was perhaps the first 
QHSR was a bit overambitious in the expectations of what the 
Department could actually do. I think there are two parts to 
solving that on both sides.
    You know, on the Congressional side, if you think of--in 
terms of asking questions, you are not terribly well-armed. You 
have GAO, which is great if you have a process question, but 
GAO can't ask--help you really kind of think through kind of 
deeply strategic analytical questions, and you have CRS, 
Congressional Research Service, which is great at kind of 
telling you what people are thinking, but they are not an 
analytic organization, either.
    So there is kind of a whole in terms of the Congressional 
support to the committee in terms of thinking, what are the 
right questions to ask? We know what we want, but what can the 
system actually produce for us?
    On the Department side--and here is where I might disagree 
with the Secretary--I do think you have to do this in the first 
year of the administration. You have to. I mean, I have been on 
this QDR thing forever, right, about first-year, second-year, 
third--whatever. You have got to do it in the first year, 
because you have got to set your priorities, because otherwise 
you run out of time to implement it.
    You have got to do it from a standing start. If you are 
lucky, you get two shots at the apple, right, you get re-
elected, you get--you know, and the same team is on board.
    But so what is that? I think you really have to have a 
permanent structure within the Department that is going to do 
this day in and day out for the 4 years running up to it.
    Now, you get two things out of that. One you get is when 
the standing team comes in, they may want to shift a focus, 
they may want to look at questions differently, but at least 
there is an analytical foundation and an infrastructure there 
that can support that. That is going to make all the difference 
in the world.
    To me, that was the big learning lesson. Alan and Dave and 
the Secretary, you know, they really had to build--you know, 
they really had to build the house. So that was a double tough 
thing for them.
    But the other thing to me, which is actually much, much 
more important, is if you have, in a sense, a permanent sell, 
then you have a partner to dialogue with. Then what you can be 
mulling over is both the questions of--what are the--you can 
have a back-and-forth between what are the tough questions we 
need to ask next time and what are the Department's 
capabilities to actually address and answer those questions?
    So I think that, you know, if we walk away from this and we 
don't figure out how we are going to have the dialogue for the 
next QHSR, so when we write the statutory requirements, not 
only do they get to the issues which are important to you and 
which are tough, but the Department can actually give me 
meaningful answers.
    Mr. Carney. Are you suggesting the answers we are getting 
today are not meaningful?
    Mr. Carafano. You know, again, I thought the Department--
you know, that the Department did a great job trying to address 
all the issues in the report and to deliver the report on time. 
I can't speak for the Department or the administration, but my 
feeling was, is that if the Department could have delivered a 
report in December to meet the statutory requirement, and they 
didn't have to run through all the interagency stuff you have 
to run through, that that would have happened.
    But, again, you know, I will just offer an example. One of 
the requirements in the report was National preparedness. That 
is a really interesting question. This is one of the questions 
we have to ask completely. Is that kind of the right question? 
I mean, you have prepared for what?
    I mean, at the end of the day, I can give you a metric and 
a measurement, but what can you really do with it? Is it 
meaningful? The Department came back and said, ``We need to do 
a National risk assessment.'' Well, I really questioned as a 
member of the HSAC kind of the--where that is coming from and 
how that makes sense.
    I mean, we live in a country of infinite vulnerabilities. 
Okay, a risk assessment is a combination of criticality, 
vulnerability, and threat. Okay, so when one of your variables 
is infinite, you know, how are you going to come up with 
something like that?
    So I kind of question what the analytical foundation in 
that is, as well. But I thought the--you know, I will say, from 
the HSAC perspective, we thought we got great feedback, great 
transparency, great interaction. I really applauded the 
Department's effort to do outreach. I think there are some real 
issues there and some real lessons learned there, as well.
    You know, you always get 80/20 on anything, which is 20 
percent of the people do 80 percent of the work. So when you 
try to do broad, strategic outreach, you get a lot of feedback 
from the 20 percent of the people that want to give you 
feedback, but then the question is, are those the right people? 
Is that feedback really meaningful? Can you actually do 
anything with it?
    That I think was a great learning lesson for the 
Department, as well. But I do think both sides here have to 
build the structure for dialogue if you want a better outcome 
next time.
    Mr. Carney. Are we asking the right people the questions 
from this subcommittee?
    Mr. Carafano. I am sorry. I don't understand the question.
    Mr. Carney. You just said we have to--you know, are you 
part of the 20 percent that----
    Mr. Carafano. No, but, you know, it all goes back to kind 
of, what do you really want to know? Then who do you really 
outreach to? I mean, you can't say we need to outreach to all 
of the stakeholders, because the stakeholders are infinite.
    Mr. Carney. We will re-engage on this.
    Mr. Bilirakis.
    Mr. Bilirakis. Thank you. Thank you, Mr. Chairman.
    Dr. Carafano, with regard to consolidating--the Congress 
consolidating their oversight over the Department of Homeland 
Security, it is long overdue, I think we will all agree on 
that. What would be your best model for oversight of the House 
committee?
    Mr. Carafano. One. Actually----
    Mr. Bilirakis. That is good, sounds good.
    Mr. Carafano. But, no, well, you know, obviously, you know, 
here is the simple answer, right? Here is the standard. If you 
can't do at least as good as the Department of Defense, that is 
fundamentally wrong, right? The Department of Defense is a key 
National security instrument, right? I mean, it doesn't have a 
committee of one. It does have to answer to multiple 
committees.
    But it is much more like something that is reasonable than 
what we have now. So if you can't make it look at least like 
that, then you have failed. Just to put a point on this, I 
mean, I have always felt that one of the problems in terms of 
consolidation is you have a chief operating officer with too 
many operating agencies.
    It was a problem that we pointed out in Homeland Security--
Department of Homeland Security 2.0, and at some point, you 
have got to get your business model right, and the business 
units have to equal the span of control that their chief 
operating officers can actually handle it. It is just that 
simple.
    Then the instruments that they have to manage that have to 
be right, which is why I raise the issue of the under 
secretary. I mean, let's be honest. We are never, ever, ever 
going to get to a consolidation of the Department of Homeland 
Security with a chart that looks like that. It is never going 
to happen unless a lot of people die, and that is when the 
Congress will be shamed into doing the right thing, and I think 
that that is the greatest tragedy that you could possibly 
imagine.
    Mr. Bilirakis. Thank you.
    Madam Secretary, Dr. Carafano's testimony offers 
interesting criticism of the lack of analytical support 
included in the QHSR and other DHS proposals to advocate the 
need for amnesty legislation. Has the Department reviewed the--
I know you touched on this--has the Department reviewed the 
1986 laws and why they failed in order to justify advocating 
for a repeat legislative performance in legalizing millions of 
people?
    I think you brought it up, Dr. Carafano.
    Could you answer that question, please, Madam Secretary?
    Ms. Lute. Congressman, with respect to the 1986 law on 
immigration, you know, the Department reviewed an extensive 
amount of its history relevant to the key mission areas that 
identified--one which was enforcing and ensuring effective 
enforcement of our immigration laws. Why? Because we believe 
fundamentally that a basic right of a country is to know who 
lives and works within your borders.
    The Department, as the administration, supports 
comprehensive immigration reform. As you know, that has a 
number of elements, including enforcement.
    Mr. Carafano lays out a set of arguments, particularly 
related to the analytics of the QHSR. Analytics are not 
sufficient for an organization like the Department of Homeland 
Security. I am an operator. Maybe what you are hearing is the 
difference between an academic and an operator's approach to 
this. It is not just what we know; it is what we do about what 
we know and how we organize to do it and how we prioritize the 
activities that those organizations undertake to execute the 
mission sets that we say are important.
    That is what we tried to do beginning with the QHSR through 
the BUR and the 2012 build. I think there are a number of 
things on which reasonable people can disagree. You know, 
should there be a permanent capacity for the QHSR? Absolutely 
not, in my view. Absolutely not.
    The American people have a right to expect that the 
leadership of the Department of Homeland Security can come 
together from time to time, whether it is quadrennial or not--
and I actually agree that the timing of the QHSR ought to 
coincide with the first year of an administration. It ought 
just not to straddle administrations. That essentially reduces 
your effective time to conduct the review that you want to do 
comprehensively.
    Mr. Bilirakis. Well, when did the review take place, if it 
did take place, when and where, of the 1986 laws?
    Ms. Lute. We will have to get back to you on that, 
Congressman.
    Mr. Bilirakis. Okay. Has this information, this review been 
shared with Congress?
    Ms. Lute. I will have to get back to you, Congressman.
    Mr. Bilirakis. Okay. Please do.
    Okay, Dr. Carafano, just last week, the full committee 
received testimony from Senators Graham and Talent on the WMD 
Commission who discussed the likelihood of a WMD attack on the 
United States in the coming years. Your testimony details your 
concern with the lack of coordination between QHSR and QDR, 
especially as it relates to military support to civil 
authorities.
    What impact would the Pentagon's proposal to downsize the 
number of military forces prepare to respond to a WMD attack 
have on the domestic response capabilities?
    Mr. Carafano. Well, it would depend on the scale of the 
response. On a very, very large response, basically, the 
Department of Defense answer is, we will backfill that with 
kind of general purpose forces.
    The problem is, on a very, very large response, the crisis 
is more immediate, you have to get there faster, and you kind 
of don't have time to kind of learn as you go. So the fact is, 
is that, on that situation, you want the first team to get in 
to be trained and equipped and prepared for it.
    The Department of Defense has actually moved in the 
opposite direction. They went from 16,000 troops to 13,000 
troops.
    Their argument is, well, we did an assessment, we did 
analysis. Then when you ask them, well, how does that compare 
with the Department of Homeland Security's analysis? There is 
no Department of Homeland Security analysis. I think this is 
just an example of where requirements are lacking.
    I mean, DHS still really doesn't have the capacity to 
really in a meaningful way articulate to DOD what are 
requirements. Therefore, I think the DOD is just going in its 
own direction. I honestly believe that the DOD decision, it was 
driven by personnel. It was just--they needed to cut 3,000 
people, so they did, and then they made it sound like they were 
doing more with less, which I don't think is true. That is just 
my honest opinion.
    It is hard for the Department to have a meaningful 
dialogue, so I think that is an example of where an opportunity 
was missed, because I think DHS just has a lack of capacity to 
really engage in a meaningful dialogue.
    Mr. Bilirakis. One last question, if I can--okay. Dr. 
Carafano, shortly after the release of both the QHSR and the 
QDR, you expressed your concern about references to climate 
change on both documents and the link they made--the link made 
to National security. Would you please discuss your concerns?
    Mr. Carafano. Well, of course, one concern is drift, right? 
If everything is National security, then nothing is National 
security. Again, I would like to compliment the QHSR and the 
effort of the Department to really focus on identifying what 
the key missions of the Department are.
    So that is one concern, is that, as you broaden National 
security, then everything becomes National security. Then, of 
course, when things are National security, that is the 
responsibility of the Federal Government, and then we tend to 
be more centralized and more focused, you know, at the center. 
We tend to increase the Federal investments in things.
    Then many times, that is not the best answer and, of 
course, particularly in homeland security, where it is a 
diverse, complex, lots of partners. Over-centralization, over-
authority is actually a bad idea.
    So I am not sure, you know, that that is meaningful and 
helpful to have the departments looking at this. Then I have 
also written on this before, is that, you know, the climate 
change--you know, there is this kind of magic thing. It is, 
well, the world is going to get warmer and everything is going 
to get worse and we are going to need a lot more National 
security and, therefore, we have to keep the world from getting 
warmer.
    Well, that is a very simplistic and unrealistic way to look 
at how things really work in the world. The world is a very, 
very complex system. When the climate changes--which it always 
has, and sometimes things get worse, sometimes things get 
better--but, you know, making simple predictive outcomes that, 
you know, we are going to need a lot more National security or 
we are going to have to change the way the economy works, and 
those are our only two options, that is not--those are 
judgments. They are not based on any kind of real science.
    I am not questioning or talking about the science about 
what--question the science about people looking at the 
predictions on climate and then for that inferring about what 
governments can or should need to do over the long term.
    Mr. Bilirakis. Thank you.
    Thank you, Mr. Chairman. Yield back.
    Mr. Carney. Thank you.
    Mr. Green, please.
    Mr. Green. Yes, thank you.
    Let me ask the Secretary, assistant secretary, to respond. 
I believe the contention was put forth that DHS does not have 
the capacity to respond to DOD. Would you like to respond to 
that, please, Madam?
    Ms. Lute. What I would say, Congressman, is that--of course 
we do. What we can't do is match DOD pound for pound in terms 
of its ability and the deliberate planning process, or nor do 
we model in the same way its demand functions.
    But every single day, we generate requirements for 
ourselves as an operating agency for our operators, and a lot 
of these processes parallel. What is true is that we have a 
long way to go in our dialogue with DOD on the support to 
civilian authorities and the kinds of contingencies that are 
represented across the whole front of homeland security 
challenges.
    Mr. Green. There was also the proposition--and you may have 
responded to it, but I would like to go back. Mr. Carafano 
indicated that we need some sort of on-going analysis taking 
place. Is that correct, Mr. Carafano?
    Mr. Carafano. Yes, sir, I think that is right, particularly 
when you look at the kinds of questions that are asked in the 
QDR. Many of those questions actually take months and years to 
answer, so if you ask them--the statutory requirement is in 
place and a new administration starts to ask them at the 
beginning, they will never get the answers in that year.
    So many of those questions actually have to be asked years 
before you actually do the QHSR, which is if you have in any 
sense an on-going brain in the Department that is being 
forward-looking in anticipating the QHSR questions, you can ask 
them in time to actually do the deep analytical dive.
    I must say, I have never--of all the criticisms I have had 
in my life, being an academic was never one of them, but I 
guess that is a good thing.
    Mr. Green. Well, before I move to the assistant secretary, 
would you explain how you would have this on-going activity 
work? Would it be housed in a given area? Would you give it a 
name? How would you have this perfected?
    Mr. Carafano. Yes, sir. I mean, the QDR is actually a very 
good model for that. There is a permanent QDR office. It is 
under the under secretary for policy. Basically what it does is 
it does all the preparatory work. It makes sure----
    Mr. Green. If we have this in place, do you assume that 
they don't do this type of analytical work?
    Mr. Carafano. That QDR office won't actually do analytical 
work, right? It is basically a coordinating body. So what it 
has to do is it has to reach out to the analytics that are 
available to the Department in the FFRDCs, in the universities, 
and kind of give them guidance, along with the Secretary for 
Science and Technology and Policy, to make sure that the 
preparatory research is done, so when the new administration 
needs those deep dives, that they are available for them.
    Mr. Green. Madam Deputy Secretary, would you care to 
respond?
    Ms. Lute. It is just my view, Congressman, that one of the 
lessons we have learned in doing the QHSR is that there is no 
substitute for leadership engagement and that this is not 
something that we can hand off to an analytic capability, 
although that is essential for doing careful work and ensuring 
that there is some perspective on the work that you are doing.
    I do believe that we need to be thinking about the next 
QHSR beginning now, and we have been. We need to have this 
dynamic impetus to renew ourselves organizationally every 4 
years, because an organization structure in the public sector, 
in my experience--which is a long one--is that organizations 
really only serve you well for about 5 to 7 years. You need an 
opportunity to refresh. The QHSR gives us that process.
    But more than that, it gives us the opportunity for 
dialogue with stakeholders, for an intensive dialogue with 
Congress about the kinds of larger strategic issues that really 
ought to be guiding the security of this homeland. That is 
important to do. I just don't know that we need a large 
permanent office to do it.
    Mr. Green. Well, let me thank both of you for your 
testimony. Clearly, you have given us much to consider, and I 
greatly appreciate the way you have approached it. I think you 
have been frank with us, and I think that is very important, to 
get that kind of candor, so thank you very much. I yield back.
    Mr. Carney. Thank you, Mr. Green.
    Secretary Lute, I think I agree with Dr. Carafano on the 
need for some sort of a permanent office. I don't know how 
large it needs to be, but I think that probably the QDR model 
is the right way.
    Dr. Carafano, when the first QDR was done, how much 
satisfaction was there with that report? Did it raise the kind 
of consternation and questions that we are raising today?
    Mr. Carafano. Well, you know, I am a historian, so I feel--
--
    Mr. Carney. That is why I asked you.
    Mr. Carafano. You know, it is really not comparable, 
because if you think about it, the Department of Defense had--
you know, when they formed the National Military Establishment, 
which was really the precursor to the Department of Defense, I 
mean, that was by the law in 1947.
    So the Department already had a large staff. It had an 
under secretary for policy. It did massive analytical analysis. 
It had an established doctrine. I mean, it knew who it was. So 
even though the few first----
    Mr. Carney. But let me stop you with that. You know, as a 
sailor, we have a different culture than the Army that has a 
different culture than the Army Air Corps that had a different 
culture than the Marines. So what we are trying to--22 separate 
agencies with different cultures are trying to come together 
here.
    So I don't know that it is that distinct, in terms of the 
historical precedent here.
    Mr. Carafano. Well, again, even then, you know, by the time 
you got to the first QDR, I mean, you already had the--I mean, 
you already had the----
    Mr. Carney. Yes.
    Mr. Carafano [continuing]. You already had the 1986 Reform 
Act and you already had the beginnings of jointness. You know, 
DOD had a long time to beat the guys over the head to try to 
get them all in line.
    So, I mean, in fairness to the Department--and, you know, I 
am an independent. I am nonpartisan. I am just going to judge 
them here. I am a guy that has followed this from day 1. When 
you look at the magnitude of the report card that you ask for 
them and what the Secretary had to do when they came on-board 
and the capacity that they had to do that, this is not a bad 
job.
    Actually, I think, if the Department of Defense had to do a 
QDR in 1950, I am not sure it would have looked any different.
    Mr. Carney. I guess that is good-ish.
    [Laughter.]
    Ms. Lute. All things-ish. Actually, I thought historians 
were academics.
    But, Mr. Chairman, I guess just inviting myself to the 
dance at this moment, you know, I would say something----
    Mr. Carney. You are always welcome.
    Ms. Lute. Thank you. I went into the Army in 1976, basic 
training. The first QDR was in the 1990s--1993, 1994? What had 
happened in the intervening time, in my view, importantly 
informed DOD's ability to do a QDR.
    The evolution of the Army after Vietnam was an 
extraordinary thing to see. The leadership said we are going to 
master the doctrine of how to fight. We are going to train to 
that doctrine, and we are going to buy the proper equipment for 
our forces.
    So they began to rebuild the institutionalized Army around 
those three things, training, doctrine and equipment. Over the 
course of the decade that followed, they added to that 
logistical support and sustainability, an emphasis on 
leadership and integrity.
    So much so, by the time Desert Storm came around, the Army 
no longer deployed soldiers, deployed forces. It deployed 
military solutions. DOD had itself evolved to a state of 
thinking about what it did and how to do it that permitted the 
kind of comprehensive cross-service analysis that the QDR now 
reflects.
    Homeland Security needs to evolve to that point where we 
can look across our capabilities and see how they blend 
together at our borders, in the interior, abroad, to achieve 
that vision that I talked about, and that is a path we are on 
with your help.
    Mr. Carney. Well, we will provide the help, certainly, but, 
you know, we have got to hit those benchmarks, you know? I was 
concerned when I started to hear things are going to be pushed 
to the 2012 budget, that that is unacceptable. You know, we 
have got to do better than that.
    But you need to understand the historic nature of the first 
report. I mean, it sets the tone going forward. From this, it 
has to have the evolutionary nature to it, but you can't just 
start over out of whole cloth, I don't think, every 4 years. I 
don't think that that makes much sense, that if you are going 
to have a culture of homeland security, if you are going to 
have folks in place who have a history of the institution, as 
institutional memory is vital no matter what we are talking 
about, if it is Department of Ag or Department of 
Transportation or Homeland Security.
    I think you probably ought to have something in the QHSR 
realm that is permanent within the Department. You get to 
determine how many folks that might entail.
    But, you know, we are frustrated and concerned at the 
subcommittee and the full committee that we don't have the 
things that we asked for. Dr. Carafano said we may be asking 
questions that are unanswerable. We never got that kind of 
response.
    Let's make sure we have a relationship with you so we 
completely understand what it is we are trying to both 
understand about homeland security, the development of the 
Department, and the relationship that you have with us. This is 
a partnership; it is not an adversarial relationship. It may 
sound like it occasionally, but this in the end is a 
partnership.
    You know, I get frustrated, too, every time we see this. 
You know, I would love each of you some evening on the back of 
a napkin to sketch out how you think this ought to look, how we 
can streamline it, how we can make this a more reasonable 
relationship with Congress and the Department.
    I will work my rear end off to get that to happen. I will 
go to the mat with the other committee Chairs and subcommittee 
Chairs. You know, this is ours. It should be, because this is a 
committee that if something happened on the Congressional side 
we can look at first. They are not going to look at 
transportation. They are not going to--they are going to look 
at the Homeland Security Committee.
    So I think it is important--so working with both of you, 
whomever wants to jump in, and lends an idea on the 
relationship that does better than this, I welcome it.
    All right. Mr. Green, any further questions?
    All right. I thank you both for your testimony, and I 
promise we will have further questions in writing. Please 
answer them quickly.
    The subcommittee stands adjourned.
    [Whereupon, at 11:31 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
